<html>
<title> - NOMINATION OF THREE NOMINEES TO THE ENVIRONMENTAL PROTECTION AGENCY: LINDA MORRISON COMBS; J. PAUL GILMAN; AND MORRIS X. WINN</title>
<body><pre>[Senate Hearing 107-667]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-667

                  NOMINATIONS OF THE 107th CONGRESS, 
                             SECOND SESSION

=======================================================================

                                HEARINGS

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   on

                            JANUARY 24, 2002

         LINDA MORRISON COMBS, to be Chief Financial Officer, 
                    Environmental Protection Agency

    J. PAUL GILMAN, to be Assistant Administrator for Research and 
              Development, Environmental Protection Agency

 MORRIS X. WINN, to be Assistant Administrator for Administration and 
          Resource Management, Environmental Protection Agency

                               __________

                              MAY 7, 2002

   JOHN P. SUAREZ, to be Assistant Administrator for Enforcement and 
         Compliance Assurance, Environmental Protection Agency

                               __________

                             JULY 18, 2002

JOHN BRESLAND and CAROLYN MERRITT, to be Members of the Chemical Safety 
                     and Hazard Investigation Board



81-722              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED SEVENTH CONGRESS
              SECOND SESSION: JANUARY 3-DECEMBER 16, 2002

                  JAMES M. JEFFORDS, Vermont, Chairman
MAX BAUCUS, Montana                  BOB SMITH, New Hampshire
HARRY REID, Nevada                   JOHN W. WARNER, Virginia
BOB GRAHAM, Florida                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     CHRISTOPHER S. BOND, Missouri
BARBARA BOXER, California            GEORGE V. VOINOVICH, Ohio
RON WYDEN, Oregon                    MICHAEL D. CRAPO, Idaho
THOMAS R. CARPER, Delaware           LINCOLN CHAFEE, Rhode Island
HILARY RODHAM CLINTON, New York      ARLEN SPECTER, Pennsylvania
JON S. CORZINE, New Jersey           BEN NIGHTHORSE CAMPBELL, Colorado
                 Ken Connolly, Majority Staff Director
                 Dave Conover, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            JANUARY 24, 2002
                           OPENING STATEMENT

Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     1

                               WITNESSES

Combs, Linda Morrison, nominated to be Chief Financial Officer, 
  Environmental Protection Agency................................     5
    Committee questionnaire......................................    11
    Letter, Office of Government Ethics..........................    26
    Prepared statement...........................................     9
    Responses to additional questions from Senator Smith.........    26
Gilman, J. Paul, nominated to be Assistant Administrator for 
  Research and Development, Environmental Protection Agency......     3
    Committee questionnaire......................................    29
    Letter, Office of Government Ethics..........................    38
    Prepared statement...........................................    27
    Responses to additional questions from:
        Senator Crapo............................................    40
        Senator Smith............................................    40
        Senator Voinovich........................................    38
Winn, Morris X., nominated to be Assistant Administrator for 
  Administration and Resource Management, Environmental 
  Protection Agency..............................................     2
    Committee questionnaire......................................    43
    Letter, Office of Government Ethics..........................    51
    Prepared statement...........................................    41
    Responses to additional questions from Senator Smith.........    51
                                 ------                                

                              MAY 7, 2002
                           OPENING STATEMENTS

Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................    68
Boxer, Hon. Barbara, U.S. Senator from the State of California...61, 64
Corzine, Hon. Jon, U.S. Senator from the State of New Jersey.....53, 65
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..    53
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....    65

                                WITNESS

Suarez, John Paul, nominated to be Assistant Administrator for 
  Enforcement and Compliance Assurance, Environmental Protection 
  Agency.........................................................    54
    Chart, What polluters pay....................................    77
    Job performance evaluation as Assistant U.S. Attorney........    80
    Letters of support:
        Michal A. Guadagno, U.S. Department of Justice...........    78
        New Jersey Police Benevolent Association.................    83
    Prepared statement...........................................    69
    Responses to additional questions from:
        Senator Boxer............................................    80
        Senator Corzine..........................................    74
        Senator Jeffords.........................................    71
        Senator Smith............................................    72
        Senator Wyden............................................    75
    Summary of trials............................................    78
                                 ------                                

                             JULY 18, 2002
                           OPENING STATEMENTS

Jeffords, Hon. James M., U.S. Senator from the State of Vermont..    85
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....    92

                               WITNESSES

Bresland, John S., nominated to be a Member of the Chemical 
  Safety and Hazard Investigation Board..........................    86
    Committee questionnaire......................................    95
    Prepared statement...........................................    93
Merritt, Carolyn W., nominated to be a Member of the Chemical 
  Safety and Hazard Investigation Board..........................    87
    Committee questionnaire......................................   108
    Prepared statement...........................................   106

                          ADDITIONAL MATERIAL

Letter, Response to IG report, CSB Commissioners.................   157
Report, Management Issues, Inspector General of the Chemical 
  Safety and Hazard Investigation Board..........................   115

 
 NOMINATION OF THREE NOMINEES TO THE ENVIRONMENTAL PROTECTION AGENCY: 
        LINDA MORRISON COMBS; J. PAUL GILMAN; AND MORRIS X. WINN

                              ----------                              

                 THURSDAY, JANUARY 24, 2002
                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m. in room 
SD-406, Senate Dirksen Building, Hon. James M. Jeffords, 
chairman of the committee, presiding.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Good afternoon to you. We have this 
afternoon three nominees for positions with the Environmental 
Protection Agency. They are: Ms. Linda Morrison Combs, 
nominated to be Chief Financial Officer. Well, that is 
impressive.
    Then Mr. J. Paul Gilman, nominated to be the Assistant 
Administrator for the Office of Research and Development, 
another very important job.
    Then Mr. Morris Winn, nominated to be Assistant 
Administrator of the Office of the Administration and Resources 
Management. That is an interesting, fascinating job.
    I look forward to the hearing with each of you and want to 
comment you on your willingness to commit to public service. 
Each of you brings a great deal of experience and expertise to 
these positions. I hope we will be working together to assure 
the protection of the environment.
    I would like to let everyone know how we are going to 
proceed this afternoon. Before giving your statement, please 
introduce any family members you have here. As I go to each of 
you, I would be pleased if you would do that.
    Also, you may summarize your statements as much as you 
desire, if that feels appropriate. Your full statement will be 
included in the record.
    We will save questions until each of you has finished your 
statement. After all members have a chance to ask questions and 
I am the only one here, I think, and probably will be, I'll 
conclude the hearing by asking each of you two obligatory 
questions.
    For those committee members who are unable to be here today 
or who have additional questions, we will forward those 
questions to them. All members have a limited length of time to 
submit questions to you if they are not here at the hearing.
    As soon as the committee receives all the responses, then 
we will act on your nominations and I want to be as expeditious 
as possible.
    So, with that, Morris, why don't you start us off and 
introduce any of your family that you may have with you.

 STATEMENT OF MORRIS WINN, NOMINEE FOR ASSISTANT ADMINISTRATOR 
FOR ADMINISTRATION AND RESOURCES MANAGEMENT, U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Winn. Thank you, Mr. Chairman. Unfortunately my family 
is not with me. They are back home in Austin, Texas. They are 
rooting for me from afar. Thank you very much.
    It's with great honor and privilege, Mr. Chairman, that I 
am here today as the nominee of President Bush and Governor 
Whitman for EPA's Assistant Administrator for Administration 
and Resource Management, which I'll refer to as OARM. I am 
extremely proud to serve in the Bush Administration and with 
Governor Whitman, both of whom are working to enhance the level 
of public health and environmental protection for all 
Americans. I look forward to working with this committee, the 
Congress, and the EPA.
    If I can for just a second speak briefly about my 
background and discuss where I hope to bring new ideas and 
leadership to this position if I am confirmed. I have about 30 
years of public service experience in the great State of Texas. 
I have worked for four Governors, two attorneys-general, four 
commissioners of insurance, and a State Comptroller all who had 
very different philosophical views.
    I had a leadership role in managing diversity, providing 
human resources programs as well as providing a full range of 
administrative support. I developed an effective strategy to 
recruit, train and retain a high caliber of State employees.
    In my last job, Senator, I had the occasion to hire 
approximately 700 employees in less than 24 months without any 
grievances or lawsuits in that process. Throughout my career I 
have pursued public service passionately, employing a balanced 
management of people and tasks. I consider myself a fiscal 
realist. I intend to be frugal with spending the taxpayers' 
dollars under my management. I believe that public service 
requires integrity, energy and purpose. It is not simply a job, 
nor is it just a profession to me. I consider this a very high 
honor. I firmly believe that our Federal employees are indeed 
the Agency's most valuable asset. As we collectively raise the 
bar of fairness and equity in the workplace, I believe we must 
recognize that there are heroes on both sides of every issue.
    There are employees who can tell us about all the 
injustices in the workplace and discrimination. There are also 
those employees who can tell us about all the good and 
wonderful things in the organization. I believe that we need 
both of these perspectives to improve the workplace 
productivity and agency performance.
    My goal is to help EPA and its employees find their will to 
serve a growing and more demanding customer base. I aim to 
establish a system of total accountability where employees at 
all levels in the organization will own their jobs, that is, 
the duties assigned to them. I believe that employees should be 
free to succeed or fail based on their measured performance.
    The tragic events of September 11th and the prospects of 
terrorist activity have raised anxiety levels throughout our 
Nation.
    Federal employees have shown courage and dedication in 
continuing to serve the American public. I will work to ensure 
the safety of EPA's employees and facilities as we meet our 
needs.
    I am also aware that both the Congress and the President 
have concerns about the Federal Government's human capital 
crisis and the resulting workforce challenges.
    I will ensure that we integrate workforce planning into the 
Agency's strategic and budget planning process and under the 
umbrella of EPA's human capital strategy, I will work hard to 
support all of the President's management agenda initiatives.
    Last, I will work to ensure a high level of integrity and 
accountability in our financial resources management. Each year 
two-thirds of EPA's budget is obligated as contracts or grants. 
The management of these resources is very important and it must 
be done well.
    If confirmed, I will strengthen oversight and make sure 
that we have an early warning system built into our processes 
that the American people can receive cost-effective results 
from contracts and grants. I will not take this position for 
granted. I realize it will be a very tough challenge for me as 
well as for our organization in these troubling times.
    However, if I am confirmed, I pledge to bring the full 
weight of my integrity, energy and experience to bear on 
meeting the challenges and raise the bar of excellence for EPA 
and for OARM.
    I will be pleased to answer any questions you may have. 
Thank you very much.
    Senator Jeffords. Thank you.
    Paul, please proceed.

      STATEMENT OF J. PAUL GILMAN, NOMINEE FOR ASSISTANT 
ADMINISTRATOR FOR RESEARCH AND DEVELOPMENT, U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Gilman. Mr. Chairman, I would like to introduce my 
wife, Ginny and our two sons, Samuel and Will. We are also 
accompanied by a long-time friend, Angela Ray.
    Senator Jeffords. I see a wave coming at me there. Thank 
you very much.
    Mr. Gilman. It is a privilege to appear before you, Mr. 
Chairman. It is certainly a privilege and it's also an honor to 
appear as a nominee for the Assistant Administrator for the 
research and development efforts at EPA.
    I am excited about the opportunity to serve with Governor 
Whitman. I would like to first address what I believe are my 
qualifications for the position. My education, research and 
employment experience, I think, have contributed to those 
qualifications.
    Most recently I was at Celera Genomics, a private sector 
reesearch enterprise, and was able to participate in the 
creation of a very fast-paced and highly productive research 
program there. My knowledge of research management was greatly 
enhanced by that. I believe my immersion in new fields of 
genomics and bioinformatics will be useful as we begin to use 
these tools in the scientific and technical challenges in the 
environmental sciences.
    I have served as an external member of the Department of 
Energy's Laboratory Operations Board where we studied the 
management of their Federal research facilities. I think that 
opportunity has contributed again to my general knowledge of 
Federal research facilities.
    I also spent time before that as the person in charge of 
the programs for life sciences and agriculture at the National 
Academy of Sciences and Engineering's National Research 
Council. That gave me quite an education on the significant 
issues and the scientific context that face EPA on a daily 
basis.
    While at OMB, I had direct responsibility for budget 
formulation for the EPA and other science-related agencies and 
also participated in the regulatory review process.
    At the Department of Energy, I had principal 
responsibilities in advising the Secretary in scientific and 
technical matters, especially related to human health and 
environmental research and environmental remediation.
    I spent 13 years in the U.S. Senate as a staff member, my 
first year as a congressional science fellow for the American 
Association for the Advancement of Science. I had a broad 
education in science-related issues and in environmental and 
human health issues as well.
    I participated in this committee's investigation of the 
Three Mile Island Accident, the Nuclear Waste Policy Act of 
1982, and broad oversight in a number of regulatory agencies.
    I would like to share with you, Mr. Chairman, my thoughts 
about the nature of science in government and in EPA. I believe 
those that pursue science and engineering in government take on 
a special role and a particularly weighty responsibility.
    I do believe that in doing so you become an advocate for 
the truth. There's a quote of Albert Einstein's engraved on the 
monument to him outside the National Academy of Sciences 
Building. It captures my feelings on this matter and my 
commitment to your committee and to my President. Professor 
Einstein said, ``The right to search for truth implies also a 
duty. One must not conceal any part of what one has recognized 
to be true.''
    There has been substantial change in the Office of Research 
and Development at EPA under the past two Assistant 
Administrators. Dr. Robert Huggett set the major research 
programs on a new course, designed to have science serve the 
mission of the Agency and to move away from solely research for 
research's sake.
    Dr. Norine Noonan further moved in that area and also 
instituted a very vigorous planning process aimed at making the 
right research available to the Agency's regulators when they 
need it. We are beginning to see the results of that effort. If 
confirmed, I will sustain the reforms that they instituted. 
Where appropriate I will initiate new ones with the goal of 
pursuing the best use of science in the EPA regulatory process.
    Thank you for the opportunity to appear before you, Mr. 
Chairman.
    Senator Jeffords. Ms. Combs, please proceed.

STATEMENT OF LINDA MORRISON COMBS, NOMINEE FOR CHIEF FINANCIAL 
         OFFICER, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Combs. Thank you, Mr. Chairman. I regret that my family 
is not here today. They are back in North Carolina, where I 
come from. But I do appreciate the opportunity and I am very 
pleased to appear before you today as you consider my 
qualifications for the position of Chief Financial Officer at 
the Environmental Protection Agency.
    I am deeply honored that I have been nominated by President 
Bush for this important post and I certainly want to thank 
Governor Whitman as well for her confidence in me in 
considering me for this position.
    It is indeed a privilege to be considered once again for a 
position of great trust within the Federal Government. Some of 
the most rewarding years in my career have been spent in 
executive positions, primarily in the management positions and 
in the finance positions at the Department of the Treasury, the 
Department of Veterans Affairs and the Department of Education.
    I would welcome the opportunity to serve the public once 
again at the EPA. This Agency's staff is well known for their 
personal commitment to the organization's mission of protecting 
human health and the environment. This is a commitment that I 
share, while recognizing as well the special contributions that 
sound financial management can and should also make to the 
business of environmental protection.
    In short, I believe that we must manage and account for our 
physical resources just as carefully as we protect and preserve 
our natural resources. As you very well know, the Chief 
Financial Officer of any organization carries a tremendous 
weight and tremendous responsibility. It is a pivotal position 
where planning, budget, accountability, and resource management 
all come together as they should.
    I think that the CFO in a Federal Government agency bears 
an additional responsibility of being accountable to the public 
that we serve.
    I believe that the experiences that I bring with me from 
North Carolina where I have participated in State government, 
local government, as well as the private sector, and the 
experiences that I bring with me having served the other 
Federal segments that I mentioned a moment ago, give me the 
broadest possible prospective on the kinds of challenges that I 
am likely to face in the CFO position at the EPA.
    If I am confirmed, it will be my goal to buildupon the 
progress that has been made since my last position in the 
executive branch. The CFO position was created in 1990 when I 
was at the Department of the Treasury. I was pleased to be able 
to work with Congress and the White House and OMB to make that 
possible.
    I can see already from the short time that I have been back 
that there have been tremendous improvements made. But we still 
have room to grow. Managing performance and results for EPA and 
the public that we serve will be my goal. In support of that 
goal I just want to pinpoint for you in the next couple of 
minutes just a couple of highlights of the opportunities that I 
see ahead.
    First and foremost, I see the opportunity we have of 
meeting the Agency's financial obligations with precision and 
timeliness. I am committed to that. We have an obligation to 
pursue the President's management agenda which my colleague, 
Morris Winn, mentioned a moment ago as well. We will both, if 
we are confirmed, have some joint as well as independent roles 
in pursuing that.
    The updated strategic plan for the Agency is coming about 
in September of 2003. I very much look forward as the Chief 
Financial Officer to working with your folks and making sure 
that this is done in a way that would be beneficial to all of 
our constituents needs.
    Of course, budgeting and annual planning is always an 
integral part of the CFO's work. I look forward to working 
closely with Congress on that effort as well.
    One of the biggest challenges and opportunities that I see 
the Agency confronting is the need to continue developing and 
maintaining financial systems that serve multiple customers and 
multiple needs.
    I am personally committed to managing and communicating 
accurate and meaningful information about EPA's fiscal health 
and financial position. I believe that Federal agency systems 
need to be versatile enough to provide financial statements 
worthy of clean audit opinion as well as information about 
program costs in a form that's helpful to line managers to 
manage their programs better, being able to give a big picture 
analysis for those of us who may need to look at that as well.
    Certainly congressional interest in, and support for, those 
kinds of informational needs is entirely appropriate. Should I 
be confirmed, I really look forward to working with you and 
your staff and responding to your specific needs and your 
constituents' needs. One of the other focal points that I would 
like to mention is, of course, our annual report. One of the 
principal sources of information that EPA has in citing the 
good things that we do should be that annual report. I look 
forward to pointing out the benefits that our citizens derive 
from the valuable work that EPA does.
    In closing, I would just say that in each of the public 
offices in which I have served, I have always been guided by 
one overriding principle. That principle is that public service 
is indeed a public trust. I am committed to upholding the 
highest standards of honesty, fairness and integrity. The 
people of our country deserve absolutely no less from those of 
us who serve in such honored positions.
    So, should you honor me with confirmation, I look forward 
to working with you and to the job ahead. I have already found, 
in the short time I have been at EPA, that the office of the 
Chief Financial Officer is staffed with some of the very finest 
professionals I have ever met in my life. I am eager to begin 
our work together.
    I would be pleased to answer any questions that you have.
    Senator Jeffords. Thank you very much.
    That was an excellent statement. Now the tough questioning 
period comes.
    Mr. Winn, you have a great deal of experience in managing 
everything from personnel to budgets for the State of Texas. 
What challenges do you see in managing the resources of this 
important Agency?
    Mr. Winn. Senator, thank you for that very thoughtful 
question. First of all, I think most thinking people will 
understand that the crisis facing not only our Agency but all 
other Federal agencies and State agencies is the aging 
workforce and the so-called ``brain drain.'' I say so-called 
brain drain because there's an assumption that us baby boomers 
who are retiring have something to offer the population. After 
further evaluation, the answer is a resounding yes.
    I think a huge challenge for every manager and for the 
Assistant Administrators that may be confirmed is to try to 
harness that information and capture it in some comprehensive, 
consolidated fashion. Not just succession planning, but 
knowledge transfer. The challenge will be to transfer knowledge 
from those that choose to retire from the Federal Government 
and those that just choose to leave and do that in a very 
orderly fashion so the taxpayers can always understand that 
they are getting their money's worth from Federal employees.
    The human capital crisis is our No. 1 challenge. I think 
that is no small order. Also, there are changes that probably 
have to be performed legislatively. I think there are a lot of 
management issues that we need, to address.
    Senator Jeffords. Thank you.
    Mr. Gilman, EPA has vast and varied research 
responsibility. We rely on the Agency to provide the best 
available scientific information for our decisionmaking 
process. Mr. Gilman, with the challenge of trying to meet all 
the research needs of the EPA, how will you set priorities with 
the limited dollars you will have to work with? That is going 
to be a tough job.
    Mr. Gilman. You bet. It is complicated by the fact that 
while you want to be very much oriented toward fulfilling the 
needs of the programmatic offices that are carrying out the 
mission of the Agency, the air office, the water office, you 
still want to maintain a core element of research around which 
you can really build the research programs for those programs, 
a very basic oriented research program that keeps the Agency on 
the cutting edge of the science.
    So, it's complicated. I believe the regulatory review 
process that the EPA is revitalizing will provide a basis for 
us to prioritize. It will really help us at the very early 
stages of the regulatory process to understand what knowledge 
is needed to make a good rule and to understand what role 
scientific research plays in that, including what role in-house 
research at EPA will be, what role we can assign to university-
based researchers and what we can expect from industry and 
advocacy groups in the process.
    So, it really becomes a process of trying to first find out 
what the Agency's priorities are, and second, find out what the 
resources available are within the Agency. Then EPA will 
collaborate within the Agency with other Federal agencies, and 
nonprofit groups interested in funding research to make sure 
that the right information is available when the regulatory 
decisions need to be made.
    Senator Jeffords. That is a very important job, as you well 
know.
    Ms. Combs, one of your responsibilities in this is position 
will be to promote EPA's perspective when forming Federal 
financial policies with all the government agencies. Given the 
importance of the Agency's responsibilities in protecting our 
environment, how will you do that when competing interests such 
as education and defense will have their agencies advocating 
their perspective, and trying to grab every nickel they can?
    Ms. Combs. You are quite familiar with that yourself, Mr. 
Chairman, I know. You wrestle with that all the time, each and 
every day. You know, there are a lot of priorities that our 
country faces right now.
    One of the priorities that I hold very near and dear to my 
heart is a priority that I grew up with. I grew up in rural 
North Carolina. I grew up where I could put my toes in the 
grass and walk in the streams and do all the things that I 
would love to see all children be able to do.
    I still, when I go back to North Carolina, have a great 
feeling that I like to put my toes in the grass. So, I have a 
great admiration and need to look at those beautiful mountains 
and enjoy the beautiful coastal areas.
    I expect every American likes to feel that they have clean 
water, and clean air and they deserve nothing less. As I said 
in my testimony, the Chief Financial Officer is indeed a 
pivotal point where EPA's priorities come together. You are 
speaking about priorities that EPA has weighed against 
priorities of the Department of Defense and the Department of 
Education. We all have our roles to play. In this important and 
critical time in our Nation, I think we can't overlook the 
importance of clean water, clean air and clean land.
    That is an important responsibility. It's an important 
accountability for each and every one of us. I will do my part 
when working on the CFO council to make sure that we speak from 
integrity and openness and we will have our place at the table.
    Senator Jeffords. Thank you, Mr. Chairman. Now come the 
obligatory questions. I would like you all to stand and answer 
``yes'' is that's the appropriate answer.
    Are you willing, at the request of any duly constituted 
committee of the Congress, to appear in front of it as a 
witness?
    Mr. Winn. Yes.
    Mr. Gilman. Yes.
    Ms. Combs. Yes.
    Senator Jeffords. Do you know of any matters which you may 
or may not have thus far disclosed which might place you in any 
conflict of interest if you are confirmed in this position? 
Now, that takes a different answer, I think.
    Mr. Winn. No.
    Ms. Combs. No.
    Mr. Gilman. No.
    Senator Jeffords. You may be seated. I want to thank you 
for your willingness to participate. It is so important. With 
the capabilities and qualifications that you have, I know it's 
going to be a real pleasure working with all three of you.
    I am attempting and hopefully will move your nominations 
next Tuesday so we can get our best value that way. But one 
never knows around here what will happen. But all expectations 
are that we'll be able to do that.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 3 o'clock p.m., the committee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]

Statement of Linda Morrison Combs, Nominee for Chief Financial Officer, 
                  U.S. Environmental Protection Agency

    Mr. Chairman and members of the committee, I am pleased to appear 
before you today as you consider my qualifications for the position of 
Chief Financial Officer of the Environmental Protection Agency (EPA). I 
am deeply honored to have been nominated by President Bush for this 
important post, and I would like to thank Governor Whitman for her 
confidence in selecting me for this position.
    It is a privilege to be considered once again for a position of 
great trust within the Federal Government. Some of the most rewarding 
years of my career have been spent in executive positions with the 
Department of the Treasury, the Department of Veterans Affairs, and the 
Department of Education. I would welcome the opportunity to continue to 
serve the public at EPA, an agency whose staff are well-known for their 
personal commitment to the organization's mission: protecting human 
health and the environment. This is a commitment that I share, while 
recognizing the special contributions that sound fiscal management can 
make to the business of environmental protection. In short, we must 
manage and account for our fiscal resources as carefully as we protect 
and preserve our natural resources.
    The Chief Financial Officer (CFO) of any organization carries a 
tremendous responsibility. It is a pivotal position, where planning, 
budgeting, accountability, and resource management all come together. 
In government organizations, the CFO bears additional responsibility as 
an executive accountable to the public. I believe my experiences at 
Federal, State, and local government levels and within the private 
sector have given me the broadest possible perspective on the kinds of 
challenges likely to face the CFO in any large organization.
    Moreover, I am quite familiar with the management issues of 
greatest concern to CFOs in the executive branch. I was fortunate to 
have worked closely with Congress and the Office of Management and 
Budget on development and passage of the Chief Financial Officers Act 
of 1990. We did a great deal of work together to define financial and 
performance standards for Federal CFOs that would be consistent with 
those normally applied to private sector CFOs. I believe the success of 
that landmark legislation is apparent in the advances made across 
government since my tenure as the first CFO at Treasury. If I am 
confirmed, it will be my goal to buildupon the progress that has 
already been made and continue to improve management, performance, and 
results for EPA and for the public we serve.
    In support of this goal, I would like to highlight a few of the 
opportunities I see ahead.
    Should my appointment be confirmed, a major focus of my work at EPA 
would be to pursue the President's Management Agenda, which focuses on 
Human Capital, E-Government, Competitive Sourcing, Financial 
Performance, and Budget and Performance Integration. I would apply to 
this work the best practices I have identified in my private and public 
sector management experience.
    EPA's Office of the Chief Financial Officer would have an 
opportunity to maintain its focus on solid, customer-oriented financial 
services, meeting the Agency's financial obligations with precision and 
timeliness. EPA has a good track record in this area, as demonstrated 
by the performance measures applied to CFOs across government, and I 
would look forward to continuing to meet or exceed all standards.
    EPA will surely continue its work in compliance with the Government 
Performance and Results Act (GPRA). A major part of that work will be 
the planning and consultation that will result in an updated Strategic 
Plan for the Agency, to be submitted to Congress in September 2003. The 
Office of the Chief Financial Officer is EPA's focal point for this 
effort. I would expect to build on the Agency's experience of working 
through two strategic plans under GPRA, factoring in my own previous 
planning and budgeting experience as a Federal management executive.
    Of course budgeting and annual planning will be a large part of the 
office's work, as it was in the organizations I headed at Treasury, 
Veterans Affairs, and Education. I look forward to leading the Agency's 
budget formulation and management activities and pledge to work closely 
with Congress in that effort. EPA has been commended by GAO and other 
oversight organizations for linking its strategic plan, annual plans, 
and budgets, using a common framework of goals and objectives. If 
confirmed, I would work to maintain such links and refine the Agency's 
efforts to connect costs and results.
    The Agency will need to continue developing and maintaining 
financial systems that serve multiple customers. I am personally 
committed to managing and communicating accurate, meaningful 
information about EPA's fiscal health and financial position. I believe 
Federal agency systems need to be versatile enough to produce financial 
statements worthy of clean audit opinions, as well as information about 
program costs in a form that is useful to line managers who need to 
make informed decisions. No less important is the need for Federal 
agency systems to produce information for ``big picture'' analysis of 
how much is spent to achieve particular results for the American 
people. Congressional interest in this kind of information is entirely 
appropriate, and duly noted. Should I be confirmed in this position, I 
would look forward to working with you to respond to your needs.
    One principal source of information citing EPA's accomplishments is 
its Annual Report, with which I am sure you are familiar. The Office of 
the Chief Financial Officer is also the Agency's focal point for 
preparing this report. EPA's Annual Report has been recognized as one 
of the best in government for bringing together its audited financial 
statements, a comprehensive discussion of program accomplishments, and 
an assessment of Agency management controls. If confirmed, I would seek 
opportunities to communicate to the public ever more clearly how EPA 
employs their tax dollars, and what benefits our citizens derive from 
the valuable work that EPA does.
    In each of the public offices in which I have served, I have been 
guided by one over-riding principle: public service is a public trust. 
I pledge to you that I am committed to upholding the highest standards 
of honesty, fairness, and integrity. The people of this great country 
deserve no less from those of us who serve in such honored positions.
    I approach the challenges that lie before me with enthusiasm, and 
eagerness to provide expert leadership for the EPA and for this 
Administration. Should you honor me with confirmation, I look forward 
to working with you and to the job ahead. The Office of the Chief 
Financial Officer is staffed with some of the finest professionals 
anywhere. I am eager to begin our work together.
    At this time, I would be pleased to answer any questions you may 
have.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Responses of Linda Morrison Combs to Additional Questions from Senator 
                                 Smith

    Question 1. In light of the anticipated retirement of a large 
number of upper and mid-level EPA staff, what steps would you recommend 
taking to fill those positions in order to avoid a lull in overall 
productivity?
    Response. I recognize that the issues of a maturing workforce are 
among the most serious that Federal managers need to address. It makes 
sense that the first governmentwide initiative in the President's 
Management Agenda is the strategic management of human capital. I would 
recommend that EPA's senior management continue to seek opportunities 
to apply best practices in this area, including recommendations of the 
General Accounting Office (GAO) and others. It is clear that the Agency 
cannot accomplish its mission to protect human health and the 
environment without a workforce that is trained and deployed 
strategically for that purpose.
    If Morris Winn and I are confirmed, I would look forward to working 
closely with him and other senior EPA executives to promote and 
implement a Workforce Development Strategy that includes activities 
targeted at all employee levels within EPA. I would expect to be a 
strong supporter of efforts to recruit new talent into the Agency, as 
well as programs to develop and retain current expertise. These include 
EPA's SES Candidate Development Program; projects to enhance the skills 
of new managers and train journeyman-level employees who aspire to 
supervisory positions; and career development programs for 
administrative and support staff.

    Question 2. How do you see EPA being affected financially by such a 
``brain drain?"
    Response. If confirmed, I would make it a priority to see that EPA 
is not affected financially or otherwise by a loss of expert staff. If 
the Agency were to lose a significant part of its financial management 
expertise, that could have a serious financial effect, but I do not 
intend to let that happen. The Office of the Chief Financial Officer 
has a 2001 turnover rate that is slightly lower than that for EPA as a 
whole (4.89 percent, as compared with 5.16 percent), and the proportion 
of its employees eligible to retire at the end of fiscal year 2004 is 
also lower than for the Agency (14.6 percent, as compared with 17.7 
percent). The Office of the Chief Financial Officer relies on some very 
specific technical skills, and I am committed to assuring continuous 
expertise in years to come.

    Question 3. What steps do you propose taking to minimize those 
financial repercussions?
    Response. Given the opportunity to serve, I would make a commitment 
to lead efforts in the Office of the Chief Financial Officer to match 
staff talents with the important work we will need to do. I would 
review the Office's skills assessments to determine current abilities 
and estimate future demands on our collective know-how, and work with 
senior managers to maintain a top financial management workforce for 
EPA. I would also promote career development programs for the Office's 
administrative and support staff, and for first-line supervisors. I 
have attended meetings of a front-line supervisors' group and look 
forward to supporting their development if I am confirmed as Chief 
Financial Officer. I would continue the Office's own summer intern 
program, which has a history of attracting students from a variety of 
backgrounds and academic disciplines. Given the opportunity, I would 
seek ways to expand involvement with the EPA Intern Program and other 
recruiting efforts to attract a diverse group of talented people to 
begin Federal careers with EPA's Office of the Chief Financial Officer.

                               __________
 Statement of J. Paul Gilman, Nominee for Assistant Administrator for 
     Research and Development, U.S. Environmental Protection Agency

    Good afternoon, Mr. Chairman and members of the committee. It is a 
privilege to appear before you as the nominee to be the Assistant 
Administrator for Research and Development for the United States 
Environmental Protection Agency (EPA). I am honored that President Bush 
has nominated me and I am excited about the opportunity to serve with 
Governor Whitman. I am delighted to be joined today by my wife Ginny 
and our sons Samuel and Will.
    Let me first address my qualifications for the position. I believe 
my education, research, and employment experiences have all contributed 
to my qualifications. While employed at Celera Genomics I had the 
opportunity to participate in the creation of a fast-paced and highly 
productive private sector research enterprise. My knowledge of research 
management was greatly enhanced by this experience. I believe my 
immersion in the new fields of genomics and bioinformatics will be 
useful as we begin to use these tools to solve scientific and technical 
challenges in the environmental sciences. Serving as an External Member 
of the Department of Energy's Laboratory Operations Board has afforded 
me an excellent opportunity for insight into the management of Federal 
research facilities. While at the National Academies of Science and 
Engineering's National Research Council I had responsibility for 
activities in the life sciences, including agriculture. The scientific 
and technical activities of the EPA were often the subject of our 
various review and reports. This provided me with an in depth view of 
some of the most significant issues faced by the EPA, the scientific 
context for these issues, and the research personnel and programs at 
the EPA working to inform the agency's decisionmaking. At the Office of 
Management and Budget (OMB) I had direct responsibility for budget 
formulation and oversight for the EPA among other science-related 
agencies. My responsibilities also included participation in OMB's 
process for the review of proposed regulations from the EPA. While 
employed at the DOE my specific responsibilities included advising the 
Secretary on scientific and technical matters. These included the 
programs studying human health and environmental effects of energy-
related technologies, environmental research, and environmental 
remediation. During my 13 years working for the U.S. Senate, including 
1 year as a congressional Science Fellow of the American Association 
for the Advancement of Science, I had the opportunity to work on a wide 
variety of science-related issues, including environment and human 
health issues. I participated in the Committee on Environment and 
Public Works' investigation of the Three Mile Island Nuclear Power 
Plant accident, the passage of the Nuclear Waste Policy Act of 1982, 
and oversight of the U.S. Department of Energy's (DOE) research and 
development programs including its environmental research and 
remediation programs. As a staff member for a Senate committee I had 
the opportunity to participate in and learn the congressional budget 
process for Federal agencies. As a staff member for Senator Pete 
Domenici I necessarily became a student of the Federal Government's 
overall budget process. Last, my undergraduate education in the liberal 
arts included a broad involvement in the sciences. My graduate 
education and research focused in the earth and life sciences with a 
concentration in ecology and evolutionary biology.
    I would like to share with the committee my thoughts about the 
nature of science in government and at the EPA. I believe those who 
pursue science and engineering in government take on a special role and 
a weighty responsibility. You must be an advocate on behalf of the 
truth. There is a quote of Albert Einstein's engraved in the monument 
to him outside the National Academy of Sciences. It captures my 
feelings and my commitment to this committee and my President. It 
reads:
    The right to search for truth implies also a duty; one must not 
conceal any part of what one has recognized to be true.
    There has been substantial change in the Office of Research and 
Development at EPA under the past 2 Assistant Administrators. It has 
been aimed at improving the quality and utility of its science. Dr. 
Robert J. Huggett set major research programs on a new course. One that 
was designed to have science serve the mission of the Agency, not just 
research for the sake of research. He also initiated a substantial 
program for funding university-based research that is also focused on 
serving the mission of the agency. His successor, Dr. Norine E. Noonan, 
supported his initiatives and extended them. There is today a rigorous 
research planning process aimed at making the right research available 
to the EPA regulators when they need it. We are beginning to see the 
results of this effort. If confirmed, I will sustain these reforms and 
where appropriate, initiate new ones in the pursuit of the best use of 
science in the EPA regulatory process.
    Thank you for this opportunity to appear before you, Mr. Chairman.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                 ______
                                 
   Responses of J. Paul Gilman to Additional Questions from Senator 
                               Voinovich

    Question. The EPA's Cancer Risk Guidelines are well overdue. This 
is having a detrimental impact on programs across the Agency, not the 
least of which is the Air Toxics Program. To quote John Graham in 
testimony before the Clean Air Subcommittee in 1999, ``cancer-risk 
determinations will play a critical role in EPA's implementation of the 
residual-risk provisions of CAAA-90, yet EPA has still not modernized 
it's cancer risk assessment guidelines to account for advances in 
biological understanding of the mechanisms of cancer induction. These 
advances can have a critical impact on which chemicals are classified 
as ``carcinogens'' for regulatory purposes and what dose-response 
relationships are assumed in quantitative modeling of cancer risk. EPA 
has proposed reforms but is moving at a slow pace to adopt them. The 
agency's recent decision to ignore mechanistic science regarding 
chloroform has sent a signal in the scientific community of the 
agency's weakened commitment to modernize methods of cancer risk 
assessment (Chloroform is a chemical shown to cause cancer in animals 
at high doses that mechanistic science suggests is unlikely to cause 
human cancer at low doses).''
    While I realize that EPA has made some progress since 1999, they 
have yet to complete the cancer guidelines. Could you please explain 
your view of the current state of the problem at EPA and how you would 
propose to prioritize the scientific work of the Agency and update the 
scientific methodologies used not only by ORD but all of the program 
offices?

    Question 1A. My view of the current state of the Cancer Risk 
Guidelines
    Response. The Deputy Administrator recently (December 20, 2001) 
gave guidance for the completion of these guidelines. After a period of 
public comment set to end this week, a final draft of the revised 
guidelines will be prepared for internal review. This draft will 
respond to the comments received during the public comment period and 
the comments of the EPA's Scientific Advisory Board. This will be 
followed by an interagency review and then the formal process of Agency 
clearance.
    These revised guidelines were first proposed in 1996. They reflect 
the substantial improvements in the state of scientists' knowledge 
about the mechanisms that cause cancer. In the earliest years of EPA's 
operation the Agency used assumptions about the carcinogenicity of 
substance in lieu of detailed knowledge about the mechanisms of action 
for the particular substance of concern. Today, it is possible to 
substitute our greater knowledge of the mechanisms of cancer 
development for some of these so-called default assumptions. It has 
taken EPA additional time to resolve concerns over moving away from the 
earlier default assumptions. Some commenters believe that the science 
has not matured to the point where it can be used directly. In an 
effort to finalize these guidelines, Deputy Administrator Fisher is 
working to resolve some of these differences in approach by calling for 
a new effort to promote interaction with key Agency constituencies. 
This tension among groups that differ in their willingness to 
incorporate new scientific knowledge into the regulatory process is not 
unique to the cancer guidelines. I believe the Deputy Administrator's 
effort to reach out to these different viewpoints is the correct 
approach to resolving this and other similar regulatory situations.

    Question 1B. How do I propose to prioritize the scientific work of 
the agency?
    Response. In my view, the scientific work of the agency falls into 
two major categories. There is scientific research that is performed by 
the EPA, and there is the use or application of scientific information, 
whether performed by the Agency, academia, or industry, in creating 
regulations or in enforcing them. Under the category of research there 
is fundamental research and applied research. I believe that the Agency 
makes the distinction by using the terms ``core'' research for 
fundamental work and ``problem-driven'' research for applied work. 
Fundamental research must be performed to understand the basic 
mechanisms of how substances in the environment can adversely affect 
our health. There is also fundamental research which is necessary to 
improve our understanding of how ecological systems operate and how 
they are affected by human activities. Prioritizing fundamental 
research is a matter of identifying critical gaps in our understanding. 
Prioritizing applied research used for a particular regulatory activity 
is different. To the extent regulatory needs are driven by statutory 
deadlines prioritization is a fairly straightforward process. It 
becomes more complicated, however, when statutory deadlines do not 
anticipate the time necessary for the research to be completed.

    Question 2. In a 2000 National Research Council Report, 
``Strengthening Science at the Environmental Protection Agency,'' the 
Office of Research and Development at EPA was recognized as the 
Agency's most senior science official. In 1995, in response to the 
interim NRC report which recommended that the Assistant Administrator 
for ORD be designated as the chief scientific and technical officer at 
EPA, the head of ORD was asked to coordinate the agency's scientific-
planning and peer-review activities.
    The 2000 NRC report found that the 1995 move was inefficient and 
that the head of ORD was not given real authority over science 
activities. Could you please explain your view on the role ORD should 
play in developing science at the EPA?
    Response. Again, there are two elements to ``science'' at EPA. The 
first is research in support of the regulatory mission and the second 
is the use of that research and other scientific information in the 
regulatory decisionmaking process. The Office of Research and 
Development (ORD) acts as a service to the programmatic offices of the 
EPA for example, the Office of Air and Radiation and the Office of 
Water. ORD must develop research plans in cooperation with those 
offices that can provide the right scientific information at the 
appropriate time to support the regulatory process. ORD also has a role 
in the programmatic offices' use of scientific information in 
regulatory decisions. ORD actively participates and leads a number of 
cross-agency activities aimed at improving the use of scientific 
information and analytical tools for the regulatory process. ORD also 
reviews specific regulatory actions. In my view these fundamental roles 
are appropriate and the burden is on ORD to provide effective 
scientific leadership and the programmatic offices to respond.

                                 ______
                                 
 Responses of J. Paul Gilman to Additional Questions from Senator Crapo
    Question 1. Do you believe that R&D is an integral part of the 
EPA's functions? Does it have an impact on future compliance costs, 
available technologies, proposed regulatory levels, or future decisions 
made by the regulated community?
    Response. In my view, while the regulatory activities of the EPA 
are carried out within a statutory context, the regulatory 
decisionmaking process is largely an analytical one based on scientific 
and technical knowledge. As such, research and development plays into 
all the elements of the process you have identified.

    Question 2. A September 1999 GAO report was very critical of the 
EPA's prioritization of drinking water R&D programs. In addition to 
noting that the agency regularly requested lower than authorized levels 
of funding for drinking water R&D, the GAO found that there was little 
long-term or cohesive planning within the ORD. What steps has the EPA 
taken to correct this problem? With your management and strategic 
planning background, what additional steps will you implement at the 
EPA to address this situation?
    Response. Over the past several years ORD has designed and begun 
implementing a research planning process as part of the annual budget 
process. A key feature and the first step in the process is that the 
various programmatic offices of the EPA (e.g., the Office of Air and 
Radiation, and the Office of Water) are consulted as to their 
scientific and technical needs. ORD then plans out the appropriate way 
in which to carry out the research necessary to provide their 
scientific and technical needs. These plans cover multiple years. They 
also identify the appropriate role for different EPA laboratories, 
academic researchers, and collaborations between EPA, industry, and 
other non-governmental research organizations. I would like to extend 
this process to the point where laboratories of the various program 
offices and Regional Offices are well integrated and informed about 
each others activities.

                                 ______
                                 
 Responses of J. Paul Gilman to Additional Questions from Senator Smith
    Question 1. In light of the anticipated retirement of a large 
number of EPA scientists and individuals with specific technical 
background, what steps would you recommend taking to fill those 
positions in order to avoid a lull in overall productivity? How do you 
see EPA being affected by such a ``brain drain?'' What steps do you 
propose taking to minimize those repercussions?
    Response. There are some important activities recently started in 
ORD that are intended to ameliorate the anticipated retirement 
situation. One of the most important, in my opinion, is a program to 
attract post-doctoral researchers to EPA. These researchers, with fresh 
new ideas and experiences, may serve as an important resource for EPA 
in the future. A Work Force Plan is also being developed. It 
necessarily assumes some things about the future direction of EPA and 
the resulting research needs. I plan to seek expert advice from outside 
EPA in this process.

    Question 2. As the EPA continues to evaluate and review current and 
emerging environmental sciences and technologies, how would you propose 
to balance scientific uncertainty with the need for timely policy 
decisions?
    Response. The goal of anyone managing a research effort in support 
of a regulatory or policy decisionmaker is to minimize the leap between 
what we know and what we must decide. Sometimes the gap is the absence 
of information. Sometimes the gap is one of uncertainty about the 
reliability of what we do know. The challenge is to decide how 
important reducing that uncertainty is and at what cost. For some 
critical decisions it is appropriate to conduct further research and 
repeat prior research. For some less important decisions we may be able 
to accept higher levels of uncertainty. This decisionmaking process 
should be carried out on a case-by-case basis and in consultation with 
stakeholders affected by the decisions in question.

    Question 3. Senators Jeffords, Graham, Crapo and I will soon 
introduce legislation to reauthorize the State revolving loan funds of 
both the Clean Water Act and the Safe Drinking Water Act. One of the 
challenges we have faced is a large gap between infrastructure needs 
and the money available to help communities meet those needs. As such, 
we have been exploring various cost-saving measures, one of which 
includes additional research into new technologies for water and 
wastewater facilities. I am particularly interested in new approaches 
to the problem of combined-sewer overflows.
    Can you describe for me the status of research into new 
technologies, including how much is currently on-going? How can you 
help make this a greater priority for the Agency?
    Response. It has been said that even small improvements in cost 
reduction for the replacement of water infrastructure could have great 
effects given that the costs of infrastructure replacement in the not 
too distant future are estimated to be as high as $1 trillion. An 
analogous situation can be found in the Superfund Program where a 
statutorily mandated research program, the SITE Program, was created to 
develop cost-saving technologies for the program. Since the initiation 
of the SITE Program in 1986, cleanup of contaminated sites through the 
use of innovative technologies has resulted in a total cost savings 
(adjusted for inflation) of over $2.3 billion dollars.
    Current ORD activities that relate to water infrastructure needs is 
limited. ORD serves the Office of Water as a performer of research. 
Priorities are set in consultation with that Office. To the extent the 
Office of Water has legislative mandates that must be given higher 
priority it will likely be difficult to greatly expand infrastructure 
research. If confirmed, I will work closely with that office to 
identify opportunities for future research initiatives in this area.

    Question 4. As you may know, I have served on this authorizing 
committee for many years and in that capacity I have supported giving 
priority to non-animal, alternative test methods for inclusion in EPA's 
programs. I also strongly supported the fiscal year 2002 $4 million 
earmark for the Office of Research and Development (ORD) to research, 
develop and validate non-animal, alternative test methods.
    In your capacity as Assistant Administrator for Research and 
Development, will you commit to meeting with all stakeholders, 
including representatives from a coalition of animal protection 
organizations to discuss the opportunities for assessing which test 
methods to prioritize to ensure the most rapid and substantial 
reduction possible in animal use at the EPA and to replace animal tests 
with faster, less expensive, and more reliable non-animal methods?
    Response. Yes.

                               __________
 Statement of Morris X. Winn, Nominee for Assistant Administrator for 
Administration and Resources Management, U.S. Environmental Protection 
                                 Agency

    Mr. Chairman and members of the committee, it is with great honor 
and privilege that I am here today as the nominee of President Bush and 
Governor Whitman for the Environmental Protection Agency's Assistant 
Administrator for Administration and Resources Management, also known 
as OARM.
    First of all, I am very proud of being asked to serve in the Bush 
Administration and with Governor Whitman, both of whom are aggressively 
working to enhance the level of public health and environmental 
protection for all Americans. I look forward to working closely with 
the Congress, to improve management and performance at EPA.
    Let me speak briefly about my background and discuss where I hope 
to bring new ideas and leadership to the position, if confirmed.
    I have almost 30 years of experience in public service for the 
great State of Texas, working for four Texas Governors and two Attorney 
Generals, who held different philosophical views. I had a leadership 
role in managing diversity, administrative support activities, and 
human resource programs in the offices of the Texas State Attorney 
General and Commissioner of Insurance. Most recently, as the Director 
of Human Resources in the Comptroller's Office, I developed and 
implemented an effective strategy to recruit, hire, train, and retain 
many high performing employees. We hired approximately 700 employees 
over 24 months without any grievances or lawsuits.
    Throughout my career, I have pursued public service with a passion, 
and have dedicated myself to ``good'' government and governance, taking 
a balanced and common sense approach to managing both people and 
processes. I am a fiscal realist. I intend to practice frugal spending 
of tax payers'dollars in all the offices under my management authority. 
I believe that public service, at all organizational levels, must be 
delivered with integrity, energy, and purpose. I bring to this position 
a keen and sincere understanding that public service is not simply a 
job, nor a profession! It is a public trust and high honor.
    On this note, I firmly believe that our Federal employees and the 
EPA family of approximately 18,000 people are indeed the Agency's most 
valuable asset. As we raise the bar of fairness and equity in the 
workplace, we must recognize that there are heroes on both sides of 
every issue. There are those who speak up about injustice on racial or 
gender issues; or government waste. On the other hand, there are those 
who tell you about all the right and good things happening at an 
Agency. I recognize that we need both of these perspectives in order to 
continually look for ways to improve the talent and productivity of our 
workforce and performance of our Agency.
    If given the opportunity, I look forward to bringing these 
experiences and perspectives to the leadership team at EPA and to 
continuing to sharpen EPA's focus on efficient management services.
    I would like to summarize the values and principles that will guide 
me if confirmed as EPA's Assistant Administrator for OARM. They 
include: integrity and fiscal responsibility; openness and willingness 
to listen; fairness and accountability; proactivity; and a spirit of 
partnership.
    EPA's OARM provides leadership to ensure sound management of 
administrative services throughout the Agency. The Office has a broad 
range of functions, including: management of human resources; contracts 
and grants management; employee health, safety and security; and 
facilities construction and maintenance.
    My goal in providing leadership to these functions, is to help EPA, 
and its employees find the will to serve a growing and more demanding 
customer base. To lead this organization into a model or ``best 
practice'' organization, I would like to establish a system of total 
accountability where employees at all levels will ``own'' their jobs, 
that is, the duties assigned them. Employees should be free to succeed 
or fail based on their measured ability.
    The tragic events of September 11th and the ongoing concerns over 
increased terrorist activity, have raised the level of anxiety 
throughout our Nation. Federal employees have shown an exemplary degree 
of courage and dedication to serving the American public, rising to the 
President's challenge and returning to their jobs. I see one of my 
primary responsibilities as ensuring the safety and security of EPA's 
workforce and facilities. I will work to ensure that current efforts 
are consistent with the security demands of our times and work to test 
the responsiveness of those systems.
    I am also aware that both the Congress and the President have 
concerns about the Federal Government's Human Capital Crisis, and the 
resulting workforce challenges. In line with GAO's recommendations, I 
will ensure that we integrate workforce planning into the Agency's 
Strategic and Budget Planning processes, and under the umbrella of 
EPA's Human Capital Strategy, I will work hard to support the 
President's Initiatives.
    Lastly, I will work to ensure a high level of integrity and 
accountability in the management of our financial resources. Each year, 
approximately two-thirds of EPA's budget is obligated as contracts or 
grants. The management of these resources is a very important function 
and must be done well. In this regard, I have been informed that the 
Agency has made substantial progress over the past 2 years, so much so 
that the grants close-out backlog has been virtually eliminated, 
reduced by 97 percent. If confirmed, I will focus my efforts, and the 
efforts of my management team, on strengthening oversight and making 
sure that we have early warning systems built into our processes and 
that the American people get cost-effective results from these 
contracts and grants.
    In summary, effectively discharging the responsibilities of the 
Office of Administration and Resources Management is critical to 
meeting EPA's mission. I believe that it is in the best interest of EPA 
and the public to integrate mission goals and effective management with 
the principles of ``good'' government. I believe that bureaucracy, that 
part of government that is brushed with a paint brush of regulations 
and process, is important so long as the process never gets in the way 
of good government and public policy. Bureaucracy is bad when it 
rewards poor performance in the same manner that excellent performance 
is rewarded. Bureaucracy is also bad when we govern by excruciating 
detail, dictating every result in advance. This kills management 
creativity and common sense.
    This position will be a tough job as there are many challenges 
ahead for this organization. If confirmed, I pledge to bring the full 
weight of my integrity, energy, and experience to bear on meeting those 
challenges and raise the bar of excellence for this organization.
    Let me close by expressing my appreciation to the committee for its 
recognition of and support for the Agency's vital mission and the 
opportunity to appear here today. I'm pleased that my wife and children 
are here and would like to thank you for the courtesies extended to 
them. At this time, I would be pleased to take any questions that you 
may have.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Responses of Morris X. Winn to Additional Questions from Senator Smith

    Question 1. In light of the anticipated retirement of a large 
number of upper and mid-level EPA staff, what steps would you recommend 
taking to fill those positions in order to avoid a lull in overall 
productivity?
    Response. One of the most serious human capital issues in the 
Federal Government is the retirement of tenured managers. While this 
fact is recognized by the President, Congress, the Office of Management 
and Budget (OMB) and the Office of Personnel Management (OPM), it will 
be the Federal agencies that have primary responsibility for ensuring 
that the departure of upper and mid-level staff will not result in a 
crisis in the tax-payer or customer confidence.
    In this regard, I am committed to working with senior EPA 
executives to fully implement several strategies including, but not 
limited to the following:

    <bullet>  Engaging in the Senior Executive Service (SES) Candidate 
Development Program.
    <bullet>  Rotating current SES members and creating senior advisors 
or mentor partners. This process will relieve certain SES members of 
day-to-day management responsibilities and allow them to transfer 
valuable knowledge to less tenured managers in an orderly manner.
    <bullet>  Fully implementing a recruiting strategy that attracts 
and retains workers who have skills needed for the future.
    <bullet>  Working closely with all senior EPA executives to 
identify best practices that will allow the Agency to use information 
technology to capture the knowledge of retiring employees.

    Question 2. How do you see EPA being affected by such a ``brain 
drain?"
    Response. If confirmed, I hope to assist the Administrator and 
senior EPA executives to minimize the effect of potential retirements 
by supporting a workforce planning system. This system will provide 
standardized workforce planning requirements and methodologies to be 
used Agency-wide. It will include:

    <bullet>  identification of knowledge, skills and competencies 
needed in the future;
    <bullet>  types and numbers of positions needed by series and 
grade;
    <bullet>  an inventory of skills and competencies in the current 
EPA workforce;
    <bullet>  an examination of statistical data on expected attrition 
by occupational categories and grade levels; and
    <bullet>  a comparison of future skill needs (both skills/
competencies and numbers by occupations and grades) to existing 
workforce and identification of the gaps.
    Also, this system will help EPA forecast new hires by program 
office and Region, taking into account budget projections and funds 
needed for training and development; prepare multi-year workforce plans 
to guide decisions on workforce composition and hiring; and guide 
employee development efforts at the local and national level. Based on 
the workforce plans, EPA will develop and implement national and local 
recruitment strategies; develop strategic approaches to retaining 
employees with critical expertise and competencies; and maximize 
flexibility in using workforce programs that contribute to EPA's 
attractiveness as an employer. It is my sincere belief that these 
efforts coupled with the will of EPA senior staff will result in a 
neutral affect of the ``brain drain.''

    Question 3. What steps do you propose taking to minimize those 
repercussions?
    Response. If confirmed, I intend to utilize my energy to tailor a 
holistic approach to manage the repercussions of a ``brain drain.'' The 
first step is to target recruitment that attracts a diverse and well 
qualified pool of applicants. I am advised that this is presently being 
accomplished through EPA's web-based systems, such as ``EZ-Hire'', a 
new automated recruiting system; and ``HR Pro'', the new human 
resources information system.
    In addition, I will seek creative ways to look at phased retirement 
approaches, that is, any plan where potential retirees could work 
longer or part-time without an adverse affect on the retirement 
annuity.
    One of the paramount challenges for EPA will be to offset any 
potential research gaps caused by retiring scientists. I understand 
that the Agency is considering options for special hiring legislative 
authority which would enhance EPA's ability to compete for high quality 
research scientists. If J. Paul Gilman, Linda Morrison Combs and I are 
confirmed, I intend to work closely with them on this issue.
    In essence, I am committed to exploring a full range of options 
that will minimize any repercussions from retirement or other 
separations. EPA has a fairly low annual turnover rate of approximately 
5 percent, lower than the Federal Government. This allows EPA senior 
executives to be thoughtful in planning strategies for the continued 
development and retention of its workforce.


                     NOMINATION OF JOHN PAUL SUAREZ

                              ----------                              


                          TUESDAY, MAY 7, 2002

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11 o'clock a.m. 
in room 406, Senate Dirksen Building, Hon. James M. Jeffords 
[chairman of the committee] presiding.
    Present: Senators Jeffords, Boxer, and Corzine.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Good morning. I would like to welcome Mr. 
John Peter Suarez, President Bush's nominee to be the Assistant 
Administrator of Enforcement and Compliance Assurance for the 
Environmental Protection Agency.
    I would like to let everyone know how we will proceed this 
morning, and I will recognize--I believe Senator Smith will be 
here, and if he comes, he will have an opening statement; and 
Senator Corzine who will, of course, introduce Mr. Suarez.
    Before you begin your statement, if you would please 
introduce any of your family members that you may have with 
you.
    Mr. Suarez. Thank you, Senator Jeffords.
    With me, right behind me, is my wife, Natalie, and she has 
our 2-year-old, Lena, in her lap; and this is my daughter 
Chloe, who is just a little bit over 4 years old. This is my 
sister-in-law, Ann Suarez. This is my brother, Paul Suarez. And 
hiding in the back in the stroller, right now sleeping--but I 
can't guarantee that--is my son Maxwell, who is about 8 weeks 
old.
    Senator Jeffords. All right. Well, you're doing very well.
    Now I would ask Senator Corzine if he has a statement he 
would like to make.

OPENING STATEMENT OF HON. JON S. CORZINE, U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Corzine. Thank you, Mr. Chairman. It is my pleasure 
to introduce my fellow New Jerseyan, John Peter Suarez, to the 
committee; he is more informally known as ``J.P.''. Mr. Suarez 
has been nominated by President Bush, as you noted to be the 
Assistant Administrator for EPA's Office of Enforcement and 
Compliance Assurance, and I also would like to welcome his 
family; they are terrific folks.
    I want to note very clearly that J.P. Suarez has served 
with distinction as an outstanding public servant in several 
capacities in New Jersey. He has worked as an Assistant U.S. 
Attorney in Newark. He later served Governor Whitman as an 
Assistant Counsel and as Special Assistant to the Director of 
New Jersey's Division of Criminal Justice. Most recently, Mr. 
Suarez served as Director of New Jersey's Division of Gaming 
Enforcement.
    He has an outstanding reputation among my fellow New 
Jerseyans for integrity, professionalism, and hard work. I know 
he has been working very hard to prepare for this new role. He 
has received awards throughout his career, and I think he will 
bring a strong enforcement ethic to the EPA, which I think all 
of us would like to see.
    Mr. Chairman, the laws that EPA implements are designed to 
protect public health and the environment. Strong enforcement 
of these laws is critical to my home State and to all of the 
people of the Nation. As I have noted, to where you are 
probably bored hearing it, New Jersey is unfortunately the home 
of more Superfund sites than any other State in the Nation. We 
are concerned about enforcement in New Jersey. We have 
continuing problems with air and water pollution, and the 
impact on health across my State is serious, as it is, again, 
across the Nation. So this is one of the most important jobs 
that I think we have.
    I think we can depend on Mr. Suarez to fulfill those 
responsibilities and enforce those laws vigorously. We've had 
private discussions about this, and I take him at his word, Mr. 
Chairman, and I look forward to working closely with him and I 
know that he will be cooperative with the committee and with 
you as the Chairman.
    So it is my pleasure and heartfelt, positive endorsement of 
Mr. Suarez' nomination.
    Senator Jeffords. Well, thank you. That's a good start.
    Mr. Suarez. It's a wonderful start.
    Senator Jeffords. Please proceed.

    STATEMENT OF JOHN P. SUAREZ, NOMINATED TO BE ASSISTANT 
   ADMINISTRATOR OF THE OFFICE OF ENFORCEMENT AND COMPLIANCE 
           ASSURANCE, ENVIRONMENTAL PROTECTION AGENCY

    Mr. Suarez. Thank you, Mr. Chairman and Senator Corzine. 
Thank you very much for that wonderful and gracious 
introduction.
    To the members of the committee, I would like to thank you 
for the opportunity to appear before you today to introduce 
myself and to talk about my nomination for the position of 
Assistant Administrator of the Office of Enforcement and 
Compliance Assurance in the Environmental Protection Agency.
    First, I must thank the President for his trust and 
confidence in nominating me to head the Office of Enforcement 
and Compliance Assurance. I must also thank Governor Whitman, 
whom I have had the pleasure of working for previously, and I 
look forward to doing so again.
    I believe that our Nation's environmental laws are 
critically important to every American, and I hope to have the 
opportunity to enforce those laws to help ensure that all of 
us, especially our children, can enjoy cleaner air, purer 
water, and better-protected land.
    I believe that my background and experience have prepared 
me well for this challenging position, and I would like to take 
a few moments to describe that for you.
    My interest in working in the public sector and serving the 
public interest is deep-rooted and comes, in large part, from 
the values that were instilled in me by my parents. My father, 
whose family hails from Spain, and my mother, who was born and 
raised in Nicaragua, believed that public service was a noble 
calling and encouraged all of their children to consider 
careers in government or in service to others. My brother, who 
I introduced earlier, went to the Air Force Academy and now 
serves as a Lieutenant Colonel, currently assigned to the 
Pentagon, while my oldest sister has nearly completed her 
doctoral thesis and hopes to provide counseling and therapy to 
minority adolescents. My other sister is a lawyer who works for 
her husband. All of my siblings are successes, in my eyes, and 
I admire each of them.
    When I went to law school at the University of 
Pennsylvania, I knew from the moment I entered that I wanted to 
make a career as a prosecutor. After I graduated from law 
school I clerked for a Federal judge and then applied to the 
U.S. Attorney's Office, knowing that this was where I wanted to 
start my career. I was, quite fortunately, accepted by the 
District of New Jersey and began to develop as a lawyer in a 
terrific prosecutor's office. While at the U.S. Attorney's 
Office I learned many skills that I believe are essential for a 
chief law enforcement officer. I learned how to try cases, how 
to manage investigations, and how to be a tough but fair 
prosecutor.
    I also saw first-hand the tremendous impact that 
enforcement can have on the lives and communities of those 
affected. I was fortunate to be able to try some difficult and 
exciting cases while an Assistant U.S. Attorney, and as a 
result of one of those cases--the successful prosecution of an 
Atlantic City street gang--I was awarded the U.S. Attorney 
General Director's Award.
    I was fortunate that I did not lose any of the cases that I 
tried while an Assistant U.S. Attorney, and to me, that is a 
testament to the quality of the investigators, agents, and 
supervisors that I had while in New Jersey.
    If I am confirmed for this position, I believe that the 
lessons learned while in the U.S. Attorney's Office will have 
equipped me well to understand the challenges facing agents, 
inspectors, and legal staff who work the front lines of 
environmental enforcement actions.
    After I left the U.S. Attorney's Office I want to the State 
of New Jersey's Division of Criminal Justice, where I was a 
Special Assistant to the Director of a 600-person statewide law 
enforcement agency. It was there that I began to learn how to 
manage attorneys and investigators and how to maintain 
constructive relationships with colleagues and other State 
agencies, Federal agencies, and the local law enforcement 
community. I worked with the Director to shape policy for the 
Division of Criminal Justice, and helped launch a number of 
statewide initiatives addressing longstanding, entrenched 
problems plaguing New Jersey's communities. Through this 
experience I learned the valuable lesson of working 
cooperatively across organizational lines, with different 
agencies, to achieve the best results possible for a law 
enforcement program.
    Governor Whitman then asked me to join the staff of her 
Counsel's Office, where I provided advice to the Chief Counsel 
and the Governor on criminal justice matters. It was while 
working in that capacity that she nominated me to be the 
Director of the Division of Gaming Enforcement, the State law 
enforcement agency charged with enforcing the laws and 
regulations related to the casino industry. As the head of the 
Division of Gaming Enforcement, I oversaw a staff of 400 
employees, charged with ensuring the good character and 
integrity of the people and businesses who work in that 
industry. The Division was comprised of several units, 
including a Criminal Enforcement Section, a Civil Regulatory 
Prosecutions Unit, an audit function, and a Technical Services 
Bureau that dealt with the highly technical hardware and 
software associated with the casino industry.
    As the Director, I was able to lead the professionals from 
the Division in shaping policy and enforcing statutes and 
regulations in either the criminal or civil context, and also 
to set the agency's enforcement priorities.
    I led the Division in the context of its licensing work and 
crafted appropriate enforcement responses for various degrees 
of statutory violations in both civil and criminal matters.
    My experience as the Director of the Division of Gaming 
Enforcement provided me the opportunity to use the skills I had 
developed as a lawyer with an enforcement background in 
evaluating and analyzing the appropriate action to take against 
a regulated entity in order to achieve the best results. In 
leading a large law enforcement agency with both civil and 
criminal responsibilities over a highly regulated industry, I 
developed management skills that will serve me well if I am 
confirmed to this position.
    Mr. Chairman, as is reflected in the summary of my 
professional career, I have been involved in criminal or 
regulatory enforcement at both the Federal and State level for 
over 10 years. My experience in working in very active 
enforcement offices has instilled in me a set of what I call 
``core beliefs'' that come with being in charge of a government 
office. These core beliefs include, first and foremost, 
fairness, for I believe that it is incumbent upon a law 
enforcement official to use the tremendous resources available 
in a fundamentally fair way, lest the entire process lose sight 
of the impact that it can have on individuals and communities.
    I also believe that as a law enforcement official you can 
oftentimes achieve better results by trying to work 
cooperatively with those who many would call your adversaries. 
Indeed, in my experience in the Division of Gaming Enforcement, 
I found that on many issues, even though the industry may have 
disagreed with the ultimate decision that was reached, the 
process of soliciting industry input and enlisting their 
counsel works to ensure a strong cooperative relationship 
between the regulated and the regulator.
    I also believe that flexibility is a critical component to 
a cooperative approach because with flexibility you can 
oftentimes achieve the desired result quickly and with lest 
cost.
    A necessary corollary, however, to a cooperative and 
flexible approach, is the willingness to pursue enforcement 
actions against those entities who are either unwilling or 
unable to conform their conduct to what is required by the law. 
In the proverbial carrot-and-stick model, I believe a good 
enforcement official has the stick and is not afraid to use it.
    Finally, a good enforcement official must have faith in the 
system--faith in the legislative process which produces the 
laws which we must enforce, and faith in the legal system which 
is the forum to which we must turn when controversies and cases 
need to be settled. My experience has taught me that the system 
works, and it is a system that I have enjoyed being a part of 
throughout my career.
    My experience, my commitment to public service, and my 
fundamental belief that our environmental laws provide the best 
guarantee that our Nation's natural resources will be 
protected, will allow me to lead the Office of Enforcement and 
Compliance Assurance. I can provide strong leadership and can 
bring to the office those core beliefs that I think are the 
mark of a good enforcement official. I expect to rely fully 
upon the experience and expertise of the very accomplished and 
impressive dedicated career staff employees in the Office of 
Enforcement and Compliance Assurance. I have met many of those 
dedicated staff and I am confident in their ability to assist 
me in the day-to-day management and policy issues that may 
arise.
    Mr. Chairman, I would like to assure all the members of 
this committee, the President, and Governor Whitman that, if 
confirmed, I will apply myself with the same vigor and energy 
that have marked my career to date, and that I will work as 
long and as hard as necessary to ensure that our Nation's 
environmental laws are being enforced as intended by Congress--
firmly and fairly. At the end of the day I will do everything 
in my power to live up to the promise that I have made to my 
three children, that this planet of ours will be a good and 
safe place to live. I will dedicate myself to a comprehensive 
enforcement program that will safeguard our water, our air, and 
all of our Nation's precious natural resources, because I 
believe that enforcement must be a vigorous and active 
component of the EPA's efforts to protect our Nation's 
resources. I would very much appreciate the opportunity to 
apply my experience and my desire to enforce these important 
environmental laws that Congress has put in place.
    I thank you for your patience this morning and I look 
forward to answering any questions that you may have.
    Senator Jeffords. Well, I thank you for a very excellent 
statement.
    We will now proceed to questions. After any members have 
had a chance to ask questions, I will conclude the hearing with 
two obligatory questions which I will ask you.
    Of course, members have the right to submit questions to 
you, but I wouldn't lay awake nights worrying about that. So I 
think we will just proceed.
    For those committee members who are unable to be here 
today, they will have some time to ask you questions.
    Mr. Suarez, I am concerned that your legal experience has 
not dealt with our environmental laws. The responsibility of 
the position you have been nominated to fill is a very 
important one. Our environmental laws can be rendered 
meaningless without adequate enforcement. While there is some 
transferability between your criminal enforcement experience 
and environmental enforcement, the statutes governing 
environmental protection are complex and often require 
extensive knowledge as to the underlying case law.
    With this reservation, I look forward to your response, but 
I would like you to make just a comment or two on that 
question.
    Mr. Suarez. Yes. Thank you, Mr. Chairman.
    One of the things that I can tell you and assure you that 
has impressed me already in the Office of Enforcement and 
Compliance Assurance is the expertise and experience of the 
career staff that will be in the office. There are a little 
over 3,300 employees in the Office of Enforcement and 
Compliance Assurance, and I fully intend to call upon their 
advice and counsel and expertise to help guide me when I start 
dealing with some of these complicated environmental 
regulations and statutes to which you made reference.
    I can also assure you, Mr. Chairman, that I will continue 
to learn the law, to learn its application, and to immerse 
myself in the detail that is necessary so that I can make 
informed policy decisions on the appropriate enforcement 
action. And with my enforcement background and experience and 
my management skills, I believe, Senator, that I can bring good 
leadership to the Office of Enforcement and can enforce our 
environmental laws soundly and fairly.
    Senator Jeffords. During that experience, did you have any 
opportunity to be in Superfund situations in your experience?
    Mr. Suarez. I did not have any direct experience with 
Superfund. When I was the Special Assistant to the Director in 
the Division of Criminal Justice, there was an Environmental 
Crimes Section that we did, obviously, supervise, and on a 
number of occasions I had interaction with them on some 
environmental crimes cases. But Superfund itself was not 
implicated in those.
    I can tell you, Mr. Chairman, that I believe in the 
polluter pays principle. I think that it is an important 
principle of our law. And again, I would continue to work very 
closely with our Office of Site Remediation and Enforcement if 
I am confirmed to this position.
    Senator Jeffords. This Administration, through its budget 
proposal, has focused on giving more enforcement responsibility 
to the States. Would you enlighten me as to what that means and 
what your view is?
    Mr. Suarez. Mr. Chairman, I do believe that the EPA must 
work closely with the Regional Offices, as well as with the 
States, who are oftentimes the front lines in inspections and 
in enforcement cases, gathering the evidence that is necessary. 
But that does not mean that there is an abdication of the role 
of EPA's Office of Enforcement. If I am confirmed, I would work 
very closely with the Regions and the States to identify those 
national cases that have the most significant impact on public 
health and the environment, and I would want to make sure that 
the resources available to the Office of Enforcement are 
directed toward those types of cases, while working 
cooperatively with the States and the Regions to make sure that 
as many companies are being inspected as possible to make sure 
that we have as much compliance as we can get to ensure that 
our water stays clean and our air stays pure.
    Senator Jeffords. Have you had an opportunity to review 
States to see what kind of enforcement they have been doing, 
and any feeling as to the effectiveness of State enforcement?
    Mr. Suarez. I have not substantively been involved in the 
review of State programs, but it is an important part of what 
the Office of Enforcement can and should do. I believe that if 
a State has a delegated program in any one of the disciplines 
that it can accept delegation for, I believe that it is 
important for the Office of Enforcement to make sure that the 
States are meeting their minimum threshold requirements under 
the law, because if a State is going to assume responsibility, 
it must ensure that it is in compliance with that Federal 
minimum.
    I would work with my office to make sure that we have a 
level of satisfaction that States are in compliance. If not, I 
would work with those States to bring them up to compliance, or 
we would evaluate what our options would be.
    Senator Jeffords. What is your opinion of State audit 
privilege laws, which give a person who voluntarily discloses 
environmental violations a shelter from enforcement?
    Mr. Suarez. I believe, as I have come to understand the 
audit program, that it is a very important component of 
enforcement and compliance assurance. I believe that the self-
disclosure or audit program in the EPA is a good program to 
encourage companies to engage in voluntary audits so they can 
examine their own operations and determine whether or not they 
are in compliance with the law, and then take remedial action 
quickly, effectively, and efficiently.
    I have some concerns about State audit privilege laws that 
are not consistent with Federal law. It is my understanding 
that there are a number of States that have audit privilege 
laws that would bar the use of audit information from 
enforcement work. I would want to work with those States and 
those Regions to address those concerns, to make sure that 
there was no information shielded from enforcement, so that if 
there were circumstances where that information was necessary, 
it would be accessible to us.
    Senator Jeffords. This committee has paid close attention 
to the record of enforcement of EPA. Of particular concern is 
the ongoing enforcement of new source review. If confirmed, 
what will you do to ensure that the new source review cases 
continue to be addressed?
    Mr. Suarez. Mr. Chairman, I recall some time ago that our 
Attorney General indicated that the legal premise upon which 
the new source review cases is founded is a sound one, and that 
my counterpart in the Environmental and Natural Resources 
Section of the Department of Justice has indicated that they 
will continue to prosecute those cases.
    I can assure this committee that if I am confirmed, we will 
continue to investigate new source review cases, and we will 
work with the Department of Justice to see that they are 
prosecuted.
    Senator Jeffords. Thank you.
    Senator Corzine?
    Senator Corzine. Thank you, Mr. Chairman. I am glad you 
asked the new source review question because I think it is very 
important that we take a proactive role with regard to air 
quality standards that are impacting across State lines. It's 
one of those issues that I think we will be watching very 
closely in our oversight function as we go forward.
    Last year in Governor Whitman's appearance before the 
committee in her confirmation hearing, I asked her about the 
backlog of Title 6 environmental justice cases, and some of the 
concerns within EPA. Have you been briefed on this and on what 
progress has been made in eliminating that backlog? And what 
are your general views about environmental justice issues?
    Mr. Suarez. As to Title 6, Senator, yes, there is a task 
force that is working on the backlog. I have been briefed about 
its progress and, in fact, had a meeting with the attorney who 
is heading that effort. She informs me that they are making 
good progress on the backlog and that they have reduced--and I 
can get you the exact numbers, Senator, but I think it's about 
by one-third. I will bring that information to you.
    Insofar as environmental justice is concerned, if 
confirmed, I am actually looking forward to working with the 
Environmental Justice Office to make sure that the concerns 
that are aired through the Environmental Justice Office are 
incorporated well into all the Office of Enforcement and 
Compliance work and, indeed, throughout the EPA. I don't 
believe that any single community, minority or 
underrepresented, should bear more of the burden, more of their 
fair share, of environmental consequences, and therefore I 
would work with our environmental justice program to make sure 
that their concerns are heard.
    Senator Corzine. Going back to the Superfund 
considerations, I am pleased to hear you embrace the concept of 
polluter pays. As you know, there has been a major shift in how 
the funding of the cleanup of our Superfund sites has taken 
place, moving away from that. I think some of that relates to 
how aggressive we have been in Superfund enforcement.
    Have you had a chance to review those policies, procedures, 
and actions within EPA? Are you satisfied that we are doing 
everything that we need to do to pursue polluter pay 
principles, and what steps do you plan on taking to make sure 
that there is a follow-through on that, that we adhere to the 
principle?
    Mr. Suarez. I have certainly had the benefit of numerous 
briefings with our Office of Site Remediation and Enforcement, 
which does our Superfund legal work, cost recovery work. I can 
assure you, Senator, that if I am confirmed I will work very 
closely with the Superfund office to make sure that we continue 
to be as aggressive as we can in identifying potentially 
responsible parties and get cost recovery from them for our 
cleanup efforts. We will continue to try to identify all those 
PRPs that can contribute to clean up, and we will work with the 
Office of Solid Waste and Emergency Response to clean up--to 
identify those sites that are ready for cleanup and to clean up 
as many as possible.
    I believe that the funding level has remained fairly 
static, and I can tell you that we are using the funding that 
is available to us to pursue as many actions as we can.
    As you mentioned, Senator, Superfund is an incredibly 
important program. It is one that I look forward to spending 
some time with. I can also tell you from my personal experience 
that I have seen both sides of Superfund, because we actually 
live about two miles from a successfully cleaned-up site in New 
Jersey. It is an area where I've seen both the positives and 
the negatives, and it is an area that I would want to make sure 
gets the attention it needs in OECA.
    Senator Corzine. One of the original premises in the 
Superfund legislation was that many oil companies and 
refineries, and especially chemical companies, were granted 
several liability exemptions as part of the tradeoffs of 
responsibilities with regard to polluter pay issues. And as a 
consequence, there was a tax imposed as a part of that 
negotiating process.
    If we are not able to reinstitute the polluter tax, I 
wonder if you have a view about whether we should go back and 
review this civil liability waiver?
    Mr. Suarez. Senator, candidly, I have not looked at the 
issue of the civil liability waiver and its interplay with the 
Superfund tax. I can tell you that I believe that Superfund 
needs funding. Where that comes from is a matter, as I 
understand it, for appropriations and for discussions between 
appropriations and the Administration. But there is no doubt in 
my mind that Superfund needs to be funded.
    Senator Jeffords. Senator Boxer?

OPENING STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Boxer. Thank you, Mr. Chairman. I would like to 
summarize my statement and ask Mr. Suarez a couple questions in 
my time.
    Mr. Chairman, the Office of Enforcement and Compliance 
Assurance, OECA, is very important to me because that office 
will enforce the laws that are very dear to my heart and that I 
think are essential for the people of this country.
    Last August I put a hold on the Administration's first OECA 
nominee, Don Chagradas. I did it for a number of reasons, 
stemming from a concern that he would do more harm than good to 
environmental enforcement, and that concern was based on his 
record as head of the Ohio EPA. He had a lot of experience, but 
unfortunately he took the side of polluters, not the side of 
protecting the environment.
    So I was looking forward to the Administration's second 
nominee to see who we would come up with, and I am very pleased 
to meet Mr. Suarez.
    Mr. Suarez, my comments have nothing to do with the quality 
of your experience, your intelligence, or anything, but I am 
concerned that the Administration, instead of going back and 
getting us someone who has stood for cleaning the environment, 
essentially gives us a nominee--a good person, a good person--
with no environmental enforcement record.
    Again, I would support Mr. Suarez very enthusiastically for 
a number of other posts because I know he did a good job as the 
Director of the New Jersey Division of Gaming Enforcement. If 
he had been appointed to the Department of Justice, that would 
have been appropriate. I understand that he was being 
considered for a U.S. Attorney position a few months ago. If I 
was on the Judiciary Committee, I would support his nomination 
for that type of position--even, perhaps, as Deputy Assistant 
Attorney General overseeing the Department of Justice's 
Organized Crime and Racketeering Section. But for the 
environmental enforcement position at EPA, I am looking for 
someone who has experience working with environmental laws and 
regulations.
    I think we need someone who has a working knowledge of the 
intricacies of the Clean Air Act, the Clean Water Act, RCRA, 
CERCLA. These are not just acronyms; these are complicated 
laws, and I think we need someone with an environmental 
enforcement background. Well, let's look at who held the 
position before.
    Steven Hermann, a career environmental litigation attorney 
at the DOJ for 15 years before he was nominated; for the last 
nine of those he was Assistant Chief of the General Litigation 
Section, Environmental and Natural Resources Division. During 
this time he received seven outstanding service awards from the 
Justice Department, and President Clinton chose him for this 
position. There was no question as to why because his 
environmental record was comprehensive and compelling.
    Now, the Administration sent us a fine person with no 
experience on the environment. In many ways, Mr. Suarez is in 
an untenable position. He has responded to the call to serve 
his country, and I thank him for that. But he has been asked to 
enforce environmental laws in an Administration that does not 
appear to want them enforced; and furthermore, has ignored 
Congress' mandate to provide the personnel necessary to enforce 
the laws.
    So let me just ask my one question, and then I will save 
the others for the second round.
    When you were the Director of New Jersey's Division of 
Gaming and Enforcement for 3 years, you were responsible for 
ensuring the enforcement of one statute, as I understand, the 
State Casino Control Act.
    Mr. Suarez. Correct.
    Senator Boxer. You had a primary charge of regulating one 
industry, the casino industry, in one location, Atlantic City, 
a very clear and focused position, in which I know you did 
well.
    Now, as Assistant Administrator of OECA, your 
responsibilities would be much broader. There are a number of 
environmental laws that you would have to oversee. Out of all 
those laws, which do you think are the most pressing for you to 
oversee at this time?
    Mr. Suarez. Senator, from my first blush in looking at the 
law, it seems to me that one of the areas of concern is the 
quality of our water and our safe drinking water and going into 
the Safe Drinking Water Act, as well. It was identified 
previously as a national priority, and one of the things that 
struck me was that the overwhelming amount of impaired 
waterways, that are impaired due to total coliform levels being 
unacceptably high--and as we all know, total coliform will 
result in sickness to people with impaired immune systems, 
children, the elderly. I don't think, Senator, that anybody 
should have to worry about the quality of the water when they 
turn on the faucet, and it's those kinds of enforcement actions 
and work that I would like to do, to target those areas that 
can result in the best result for human health and the 
environment, and that's the kind of work that I would do, 
working with the very experienced staff in the Office of 
Enforcement and Compliance Assurance.
    Senator Boxer. Can I follow up with one more?
    Senator Jeffords. Certainly.
    Senator Boxer. Do you feel the same way about the Clean Air 
Act, the Toxic Substances Control Act, the Emergency Planning 
and Community Right-to-Know Act, the Resource Conservation 
Recovery Act, the Oil Pollution Act, the Comprehensive 
Environmental Response, Compensation, and Liability Act, 
Superfund, Marine Protection, Research, and Sanctuaries Act, 
NEPA--do you feel that these are all important, as well?
    Mr. Suarez. Indeed, I do. I can't say that I have a 
``favorite child'' with any of them yet. I believe they are all 
important and they all come together in a very meaningful way 
to ensure our Nation's resources.
    Senator Boxer. You're going to have to learn all about 
those and you're going to have to move, because, let me tell 
you, we're not happy with the enforcement that we see. Congress 
keeps telling the Administration, ``Here's the money, hire more 
people.'' So I hope you will be a voice at the table that is 
going to be strong.
    I keep saying it's my last, but this is absolutely my last 
question.
    You talked about children, and I believe you, and I could 
see in your eyes that you mean it. Do you agree with this 
Administration's decision to take another look at testing poor 
children for lead poisoning and moving away from that 
regulation?
    Mr. Suarez. I think that is important to make sure, 
Senator, that none of our children are subjected to 
unacceptably high levels of lead in their homes and their 
schools and their water.
    Senator Boxer. Thank you, Mr. Chairman.
    Senator Jeffords. Thank you, Senator.
    We have some more that we would like to submit to you in 
writing, and I would like at this time to say that I feel 
satisfied, and I would like to ask you the obligatory 
questions.
    The first one is, are you willing, at the request of any 
duly constituted committee of the Congress, to appear in front 
of it as a witness?
    Mr. Suarez. Yes, absolutely.
    Senator Jeffords. Second question. Do you know of any 
matters which you may or may not have thus far disclosed which 
might place you in any conflict of interest if you are 
confirmed in this position?
    Mr. Suarez. I am aware of no such matter.
    Senator Jeffords. Well, I want to thank you. This will 
conclude the hearing, and I----
    Senator Boxer. Mr. Chairman, before you do, I have one 
question.
    Senator Jeffords. Certainly. You go right ahead.
    Senator Boxer. It's about Superfund. Since I'm the Chair of 
the subcommittee that oversees Superfund and my Chairman has 
given me a lot of room to study this. Senator Corzine sits on 
the subcommittee.
    One of the things we're upset about is that we can't find 
out what this Administration is doing in terms of what sites 
they're not going to clean up at Superfund, and it's horrible. 
And in your State of New Jersey, people are just beside 
themselves. And we're having a hard time, as the committee, in 
finding out what sites will not be cleaned up.
    Will you help us get that information?
    Mr. Suarez. You have my word.
    Senator Boxer. Thank you.
    Senator Jeffords. Well, thank you very much, Mr. Suarez.
    Mr. Suarez. Thank you, Mr. Chairman
    Senator Jeffords. This concludes the hearing. We will have 
a vote at some time in the near future and hopefully we will be 
working with you.
    Mr. Suarez. Thank you. I would look forward to that, Mr. 
Chairman.
    Again, thank you, Senators.
    [Whereupon, at 11:35 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record:]

    Statement of Hon. Barbara Boxer, U.S. Senator from the State of 
                               California

    Mr. Chairman, thank you for convening today's nomination hearing. 
As you know, finding an experienced and credible individual to fill 
this particular position--the Assistant Administrator of the Office of 
Enforcement and Compliance Assurance (OECA)--is extremely important to 
me.
    Last August I put a hold on the Administration's first OECA 
nominee, Donald Schregardus. I did so for a number of reasons, all 
stemming from a great concern that Mr. Schregardus would do more harm 
than good to environmental enforcement. This concern was based on his 
record as head of the Ohio Environmental Protection Agency. He had 
considerable experience, but he--too often--took the side of the 
polluters, not the people or the environment.
    Today, as I look at the Administration's second nominee to head 
environmental enforcement and compliance, I am again concerned. The 
Administration has changed its strategy entirely, going from a nominee 
with a bad environmental enforcement record to a nominee with no 
environmental enforcement record.
    I don't say that to disparage Mr. Suarez, or to imply that his 
professional experience--most recently as the Director of the New 
Jersey Division of Gaming Enforcement--is not interesting or impressive 
in its own right.
    I personally think an appointment to the Department of Justice 
would be appropriate. I understand he was being considered for a U.S. 
Attorney position a few months ago. If I was on the Judiciary 
Committee, I would support his nomination for that type of position--or 
even perhaps as a Deputy Assistant Attorney General, overseeing the 
Department of Justice's Organized Crime and Racketeering Section.
    But, for the environmental enforcement position at EPA, I am 
looking for someone who has experience working with environmental laws 
and regulations. We need someone who has a working knowledge of the 
intricacies of the Clean Air Act, the Clean Water Act, RCRA and 
CERCLA--not just a familiarity with their acronyms. We need someone who 
has not just an enforcement background, but an environmental 
enforcement background.
    The last person to hold this position--Steven Herman--was a career 
environmental litigation attorney at the Department of Justice for 15 
years before he was nominated. For the last nine of those he was 
Assistant Chief of the General Litigation Section, Environmental and 
Natural Resources Division. During this time he received seven 
outstanding service awards from the Justice Department. When President 
Clinton chose him for this position, there was no question as to why. 
His environmental record was comprehensive and compelling.
    I was hoping the Administration would send us someone with these 
kinds of qualifications. From all I can tell, the Administration has 
sent us a fine person--and one who is eminently qualified for any 
number of positions. But he has no experience on the environment.
    In a way, Mr. Suarez is in an untenable position. He has responded 
to the call to serve his country, but has been asked to enforce 
environmental laws in an Administration that does not appear to want 
them enforced and, furthermore, has ignored Congress's mandate to 
provide the personnel necessary to enforce the laws.
    Mr. Suarez, I look forward to exploring your environmental record 
and environmental commitment today.
    Thank you again Mr. Chairman for convening this hearing.

                               __________
 Statement of Hon. Jon S. Corzine, U.S. Senator from the State of New 
                                 Jersey

    Thank you, Mr. Chairman. I am pleased to introduce New Jerseyan 
John Peter Suarez to the committee. Mr. Suarez has been nominated by 
President Bush to be the Assistant Administrator for EPA's Office of 
Enforcement and Compliance Assurance. I also want to welcome his wife 
Natalie and their three young children, daughters Chloe and Laina, and 
their 7-week old son Maxwell.
    Mr. Chairman, J.P. Suarez has served with distinction as a public 
servant in several capacities in New Jersey. He worked as an Assistant 
U.S. Attorney in Newark. He later served Governor Whitman as an 
Assistant Counsel and as a Special Assistant to the Director of the New 
Jersey Division of Criminal Justice. And most recently, Mr. Suarez 
served as the Director of New Jersey's Division of Gaming Enforcement. 
He has received awards throughout his career, and I believe would bring 
a strong enforcement ethic to the EPA.
    Mr. Chairman, the laws that EPA implements are designed to protect 
public health and the environment. Strong enforcement of these laws is 
critical to the people of New Jersey. My State has more Superfund sites 
than any other State. And we have continuing problems with air and 
water pollution that impact the health of New Jerseyans. So the top 
enforcement position at EPA is a critical one for my constituents.
    I have met with Mr. Suarez, and he has assured me that he will work 
to vigorously enforce these laws. I take him at his word, Mr. Chairman, 
and am supporting his nomination. I look forward to working closely 
with him to ensure that EPA enforcement is carried out in a way that 
protects the health of New Jerseyans and all Americans.
    I want to close by congratulating Mr. Suarez on his nomination, and 
I look forward to the balance of today's hearing.

                               __________
    Statement of Hon. Bob Smith, U.S. Senator from the State of New 
                               Hampshire

    Mr. Chairman, thank you for holding this very important nomination 
hearing on Mr. John Peter Suarez, whom the President has nominated to 
the position of Assistant Administrator for the Office of Enforcement 
and Compliance Assurance at EPA.
    Mr. Suarez is a highly qualified attorney as his extensive resume 
shows. Mr. Suarez has held a number of outstanding State positions. He 
has systematically been promoted to positions that require a greater 
level of skill--I believe that this speaks to his ability to grow into 
new and more demanding positions.
    While his resume documents his consistent success in the jobs that 
he has held, I believe that it is also important to make note of his 
numerous awards:

    <bullet>  N.J. Hispanic Bar Association Honoree
    <bullet>  U.S. Attorney's Office Public Service Award Recipient
    <bullet>  N.J. State Bar Association Professional Lawyer of the 
Year Award
    <bullet>  U.S. Attorney's Office Special Achievement Award
    <bullet>  U.S. Attorney General Director's Award

    Mr. Suarez is also involved in a number of legal societies where he 
has shown great leadership--including being selected to the position of 
Supreme Court Committee Member for the Hispanic National Bar 
Association.
    As we are all aware, the Office of Enforcement and Compliance 
Assurance works very closely with EPA Regional Offices, State 
Governments, and other Federal agencies, to ensure compliance with the 
nation's environmental laws.
    The Bush Administration is justifiably proud of their environmental 
enforcement record, as documented by the following accomplishments in 
fiscal year 2001:

    <bullet>  On the theory that compliance results in environmental 
protection, OECA provided compliance assistance for more than one 
million individuals and businesses.
    <bullet>  The Administration required violators to reduce an 
estimated 660 million pounds of pollutants and treat and safely manage 
an estimated 1.84 billion pounds.
    <bullet>  As a result of enforcement actions, violators will invest 
$4.3 billion in pollution control and cleanup measures--the highest-
ever such investment.
    <bullet>  While environmental quality is the most important 
yardstick to use in measuring success, the Administration completed 222 
civil judicial cases and issued 3,228 administrative orders and field 
citations.
    <bullet>  Criminal prosecutions resulted in prison sentences 
totaling 256 years--an increase of more than 100 years over FY2000--
along with nearly $95 million in fines and restitution.
    <bullet>  Finally, supplemental environmental projects--actions a 
violator agrees to undertake to protect the environment and human 
health--totaled at $89 million--up 60 percent from FY2000.

    At this time I would like to submit for inclusion in the record a 
fact sheet prepared by the EPA office of Enforcement and Compliance 
Assurance.
    I look forward to Mr. Suarez building on this record of success.
    The Office of Enforcement and Compliance is charged with developing 
an approach that integrates compliance assistance, compliance 
incentives and innovative civil and criminal enforcement, in order to 
maximize compliance and reduce threats to public health and the 
environment. From my meeting with Mr. Suarez, I am confident that his 
past legal and management experience, energy, and intelligence will be 
an invaluable asset to Gov. Whitman and President Bush in that effort.
    Mr. Suarez's experience as a State official is also beneficial. The 
individual States have shown how effective our environmental laws can 
be when compliance and enforcement occurs at the State level in 
cooperation with EPA. This cooperation is key to maintaining the 
strength of our environmental laws.
    I firmly believe that EPA is best suited to a standard-setting and 
compliance assistance role, with the States handling the bulk of 
enforcement actions. At the same time, EPA should maintain the ability 
to aggressively enforce the law itself when necessary.
    A report compiled by the Environmental Council of States (ECOS) 
documenting State enforcement and compliance success makes an 
interesting point. ECOS states that:

`` . . . State enforcement actions are very effective in returning 
    violating facilities to compliance, and . . . their effectiveness 
    increases as the severity increases.''

    The effective delegation of primary compliance and enforcement 
duties by the EPA to State agencies has given our environmental laws 
the strong foundation that they need. In fact, States conduct about 90 
percent of all enforcement actions.
    To assist the States in carrying out these duties, EPA must create 
and maintain a more effective means of compiling a nationwide 
enforcement and compliance data base. We must not lose sight of the 
``big picture'' when it comes to the enforcement of our environmental 
laws. EPA oversight of these compliance and enforcement programs is 
essential.
    Mr. Suarez, I appreciate the sacrifice you are making by continuing 
your career as a public servant. I have no doubt that you are up to the 
challenge and look forward to moving your nomination through the 
Senate.
    Thank you, Mr. Chairman.
              enforcement accomplishments fiscal year 2001
    Issue: Is EPA achieving its goals of requiring a high level of 
compliance by the regulated community and of reducing the release of 
pollutants into the environment?
    Status/Next Steps: EPA's enforcement program achieved tremendous 
success in fiscal year 2001, protecting human health and the 
environment through record setting amounts in injunctive relief, 
significant reductions in pollutant loadings and an estimated reduction 
of more than 660 million pounds of harmful pollutants and the treatment 
and safe management of an estimated record 1.84 billion pounds of 
pollutants, in addition to a significant increase in the commitment on 
the part of violators to spend on supplemental environmental projects:

    <bullet>  Amount spent by violators and liable parties on pollution 
controls and cleanups nearly doubled--from $2.6 billion in FY2000 to 
$4.4 billion in FY2001
    <bullet>  Civil judicial penalties assessed against environmental 
violators nearly doubled--from $55 million in FY2000 to $102 million in 
FY2001; civil administrative penalties levied by EPA were down a modest 
$1.5 million--from about $25.5 million in FY2000 $24 million in FY2001. 
Overall, penalties were way up as our strategy focused on large 
judicial cases.
    <bullet>  Number of facilities voluntarily auditing and disclosing 
violations under EPA's audit policy more than tripled--from 437 in 
FY2000 to 1,754 in FY2001
    <bullet>  Spending by violators on Supplemental Environmental 
Projects was up 60 percent--from $56 million in FY2000 to $89 million 
in FY2001
    <bullet>  Total years for criminal sentences for environmental 
violations rose from 146 years in FY2001 to 256 years in FY2001 as a 
result of EPA's strategy to, as a priority, seek jail time for 
significant criminal cases.
    <bullet>  Criminal fines fell from $122 million in FY2000 to $95 
million in FY2001--again, our strategy was to go for jail time
    Rationale: By focusing on environmental results or outcomes, such 
as the reductions in pollution, and by using all of the tools 
available, such as compliance assistance, incentives, and enforcement, 
EPA can address the most serious environmental problems and achieve 
unprecedented results.
    It is significant, for example, that the regulated community 
achieved an estimated 660 million pound reduction of harmful pollutants 
that otherwise would have been released to the environment and safely 
managed an estimated 1.84 billion pounds of pollutants. These results 
reflects EPA's shift from routine cases to the reduction, through a 
variety of incentives, of the most significant environmental risks and 
significant patterns of noncompliance.

                          Snapshot: End of Year Results FY1999 to 2001 (as of 2-12-02)
----------------------------------------------------------------------------------------------------------------
               Activity                        FY 1999                  FY 2000                  FY 2001
----------------------------------------------------------------------------------------------------------------
Audit Policy Settlements.............  106 companies..........  217 companies..........  304 companies
                                       624 facilities.........  437 facilities.........  1754 facilities
Value of Injunctive Relief...........  $3.4 billion...........  $2.6 billion...........  $4.3 billion
Civil Judicial Penalties.............  $141 million...........  $55 million............  $102 million
Civil Administrative Penalties.......  $25.5 million..........  $25.5 million..........  $24 million
SEPs.................................  $237 million...........  $56 million............  $89 million
Inspections..........................  22,000.................  20,000.................  18,000 (est.)
Administrative Actions...............  3500...................  5300...................  3200
Civil Referrals......................  403....................  368....................  327
Criminal Referrals...................  241....................  236....................  256
Criminal Sentences...................  208 years..............  146 years..............  256 years
Criminal Fines.......................  $62 million............  $122 million...........  $95 million
----------------------------------------------------------------------------------------------------------------

                ENFORCEMENT PROGRAM--CURRENT ACTIVITIES

    EPA's enforcement program remains as strong as ever. Since January 
2001, we have filed and concluded major enforcement and compliance 
actions to reduce and eliminate harmful pollution:

    <bullet>  EPA showed record results in fiscal year 2001 from our 
enforcement activities--nearly doubling the amount spent by violators 
and liable parties on pollution controls and cleanups; more than 
tripling the number of facilities voluntarily auditing and disclosing 
violations under EPA's audit policy; almost doubling the civil judicial 
penalties assessed against environmental violators; and increasing the 
spending by violators on Supplemental Environmental Projects by 60 
percent
    <bullet>  EPA's enforcement activities under the Clean Air Act to 
address New Source Review (NSR) violations continue to be vigorous. 
Beginning with investigations, of which we have over 100 under way, and 
concluding with a filed case or settlement, EPA aims to reduce harmful 
air pollution caused by refineries, power plants and other industrial 
processes, such as paper mills.1 Our current data shows that--between 
January 2001 and March 2002--EPA made 115 information requests; issued 
23 Notices of Violation; filed and settled 15 cases, concluding 7 of 
them (i.e., they were entered by the appropriate court); and engaged in 
numerous other enforcement activities such as depositions, motion 
practice and on-going settlement discussions--all to enforce the Clean 
Air Act's NSR requirements.
    <bullet>  Our NSR enforcement included a major case against a power 
plant, PSEG, which alone will reduce the company's emissions of sulfur 
dioxide (SO2) by 90 percent and its emissions of nitrogen oxides (NOx) 
by more than 80 percent. These decreases represent 32 percent of all 
the SO2 and 20 percent of all the NOx emitted from stationary sources 
in New Jersey, and 19 percent of all the SO2 and 5 percent of all the 
NOx from all sources in the State, including cars and trucks
    <bullet>  We issued many imminent hazard orders to address 
immediate threats to human health an the environment. For example, EPA 
issued two imminent hazard orders under RCRA to Magnesium Corporation 
to address dangerous dioxin levels at the facility and the threat to 
workers' health from extremely high levels of hexachlorobenzene in 
anode dust. EPA also issued two imminent hazard orders against Seaboard 
Farms under the Clean Water Act and RCRA to address contaminated 
drinking water resulting from hog farm waste.
    <bullet>  We also issued an Administrative order (made final on 
appeal in April 2001) under RCRA to address imminent threats from the 
improper storage and disposal of large volumes of munitions and 
unexploded ordnance that had been buried at the Massachusetts Military 
Reservation (MMR) on Cape Cod. The emergency order required the 
National Guard Bureau to detonate the munitions in a special 
``controlled demolition chamber'' that was present at MMR, except for 
those munitions and ordnance that were unsafe to move (and which could 
be blown in place).

    In other words, EPA has, under Administrator Whitman's watch, 
successfully addressed environmental violations using the various tools 
available, ranging from voluntary incentives to imminent hazard orders. 
Concluding cases is no small feat, and we are proud of the 
accomplishments achieved since January 2001 and will continue to pursue 
enforcement in order to achieve similar results in the future.
    These activities reflect EPA's approach to enforcement generally, 
which includes the following steps:
    <bullet>  Investigate possible violations by gathering information, 
e.g., through information requests, citizen complaints, inspections or 
other reports;
    <bullet>  Review collected information to determine compliance
    <bullet>  Issue ``Notices of Violation'' or other formal 
notification to the violator to alert them to the violations detected 
and give them an opportunity to correct those violations
    <bullet>  Enter into negotiations with the violator in an attempt 
to reach an agreed upon settlement to resolve the violations
    <bullet>  Proceed with formal enforcement by filing a case for 
litigation if no resolution of the violations could be achieved.

                               __________
 Statement of Hon. Christopher S. Bond, U.S. Senator from the State of 
                                Missouri

    Mr. Chairman, thank you for holding this hearing to consider the 
nomination of John Peter Suarez to head EPA's Office of Enforcement and 
Compliance Assurance. The enforcement and compliance office, EPA, and 
the environment, have gone far too long without new leadership in this 
area.
    EPA's enforcement and compliance program is at a cross-roads, 
between old ways of doing business and new ways that stress what is 
best for the environment as the ultimate test for what action to take.
    To their credit, the last administration began the process of 
modernizing the enforcement program by reorganizing it. That 
reorganization recognized that there is more than one way to protect 
the environment and ensure people meet their environmental obligations.
    EPA can improve the environment by assisting people to understand 
and meet their obligations. This is especially true for small 
businesses that want to do the right thing but can't wade through EPA's 
immense and complicated rules and regulations.
    EPA can improve the environment by providing people with incentives 
to meet and go beyond their environmental obligations. These incentives 
are worth their weight in gold when they fix environmental problems 
that would otherwise go unknown or unprotected by traditional 
enforcement techniques.
    EPA can also protect the environment with traditional enforcement 
techniques for the most harmful malefactors. Polluters who 
intentionally pollute, or polluters who refuse to fix their problems 
deserve strong and stiff punishment.
    We understand that the cleaner, cheaper, smarter way to improve the 
environment, as Administrator Browner used to say, may not be the 
traditional approach. So, she combined all of these elements--
enforcement, assistance, and incentives--into a single enforcement and 
compliance assurance office.
    However, the transformation is not yet complete. There are still 
some that measure commitment to the environment in terms of beans--the 
number of cases settled, the number of penalty dollars collected. 
Unfortunately, these beans often times have little to do with 
protecting or improving the environment.
    One example came 2 years ago when EPA sent out nearly 600 letters 
to facilities that omitted entries for nitrate compounds on their Toxic 
Release Inventory reporting forms. EPA threatened to assess fines 
totaling $20,000 per facility for these paperwork violations.
    The problem was, other than these violations having no 
environmental impact, EPA found them by targeting firms trying to do 
the right thing--those actually submitting their forms.
    This wasn't a case of a few bad actors. Eighty percent of filers 
failed to understand the requirement. Not surprising given that 
reporting instructions run several hundred pages. Professional 
consulting firms paid to know this requirement missed it. No wonder 
that half of those on EPA's hit list were small businesses.
    Unfortunately, in the face of no damage to the environment, instead 
of helping these people understand their obligations and come into 
compliance, EPA's enforcement program went for maximum cases and 
maximum penalty dollars.
    We need to prosecute forcefully those who intentionally harm the 
environment. We should deal harshly with those who refuse meet their 
environmental obligation. However, EPA needs to target its limited 
Federal enforcement resources in areas and ways that do the most good 
for the environment.
    The test should not be how to maximize traditional beans, or cases, 
or penalty dollars. EPA is not the IRS. They do not exist to collect 
money. They are here to protect the environment. I hope the first 
question you ask in every case will be: What is the most efficient, 
effective way to protect the environment? If you do that, the 
environment will benefit from your tenure. Thank you.

                               __________
 Statement of John Peter Suarez, Nominated by the President to be the 
 Assistant Administrator for the Office of Enforcement and Compliance 
            Assurance, U.S. Environmental Protection Agency

    Mr. Chairman, members of the committee, I would like to thank you 
for the opportunity to appear before you today to introduce myself and 
talk about my nomination for the position of Assistant Administrator 
for the Office of Enforcement and Compliance Assurance (OECA) at the 
Environmental Protection Agency (EPA). With me today are my wife, 
Natalie, and our three children, Chloe, who is 4 years old, Laina, who 
is almost 2, and Maxwell, who is all of 7 weeks old. Also, please 
accept my apologies if any or all of them have to leave during this 
hearing.
    First, I must thank President Bush for his trust and confidence in 
nominating me to head the Office of Enforcement and Compliance 
Assurance. I must also thank Governor Whitman, for whom I have had the 
pleasure of working previously and look forward to doing so again. I 
believe that the Nation's environmental laws are critically important 
to every American, and I hope to have the opportunity to enforce those 
laws to help ensure that all of us, especially our children, can enjoy 
cleaner air, purer water, and better protected land for years to come.
    I believe that my background and experience have prepared me well 
for this challenging position, and I would like to take a few moments 
to describe that for you. My interest in working in the public sector 
and serving the public interest is deep-rooted, and comes in large part 
from the values instilled in me by my parents. My father, whose family 
hails from Spain, and my mother, who was born and raised in Nicaragua, 
believed that public service was a noble calling, and encouraged all of 
their children to consider careers in government or in service to 
others. My brother went to the Air Force Academy and now serves as a 
Lt. Colonel in the Air Force assigned to the Pentagon, while my oldest 
sister has nearly completed her doctoral thesis and hopes to provide 
counseling and therapy to minority adolescents. My other sister is a 
lawyer who works for her husband's company. All of my siblings are 
successes in my eyes, and I admire each of them.
    When I went to law school at the University of Pennsylvania, I knew 
from the moment I entered that I was interested in pursuing a career as 
a prosecutor. After I graduated from law school, I clerked for a 
Federal judge and then applied to the U.S. Attorney's Office, knowing 
that this was where I wanted to start my career. I was, fortunately, 
accepted by the District of New Jersey, and began to develop as a 
lawyer in a terrific prosecutor's office.
    While at the U.S. Attorney's Office I learned many skills that I 
believe are essential for a chief law enforcement officer. I learned 
how to try cases, how to manage investigations, and how to be a tough 
but fair prosecutor. I also saw first hand the tremendous impact that 
enforcement can have on the lives of those affected. I was fortunate to 
be able to try some difficult and exciting cases, and as a result of 
one of those cases, the successful prosecution of an Atlantic City 
street gang, I was awarded the U.S. Attorney General Director's Award. 
I was fortunate that I did not lose any of the cases that I tried, and 
to me that is a testament to the quality of the agents and supervisors 
with whom I had the pleasure of working.
    If I am confirmed for this position, I believe that the lessons 
learned while in the U.S. Attorney's Office have equipped me well to 
understand the challenges facing agents, inspectors, and legal staff 
who work the front lines in environmental enforcement actions.
    After I left the U.S. Attorney's Office, I went to the State of New 
Jersey's Division of Criminal Justice, where I was the Special 
Assistant to the Director of a 600-person statewide law enforcement 
agency. It was there that I began to learn how to manage attorneys and 
investigators, and how to maintain constructive relationships with 
colleagues in other State agencies, Federal agencies, and the local law 
enforcement community. I worked with the Director to shape policy for 
the Division of Criminal Justice, and helped launch a number of 
statewide initiatives addressing long-entrenched problems plaguing New 
Jersey's communities. Through this experience, I learned the valuable 
lesson of working cooperatively across organizational lines and with 
different agencies to achieve the best results for law enforcement 
programs.
    Governor Whitman then asked me to join the staff of her Counsel's 
Office, where I provided advice to the Chief Counsel and the Governor 
on criminal justice matters. It was while working in that capacity that 
Governor Whitman nominated me to be the Director of the Division of 
Gaming Enforcement, the State law enforcement agency charged with 
enforcing the laws and regulations related to the casino industry.
    As the head of the Division of Gaming Enforcement, I oversaw a 
staff of 400 employees charged with ensuring the good character and 
integrity of the people and businesses who worked in the industry. The 
Division was comprised of several units, including a criminal 
enforcement section, a civil regulatory prosecutions unit, an audit 
function, and a technical services unit that dealt with the highly 
sophisticated computer software and hardware of the gaming industry. As 
the Director, I was able to lead the professionals from the Division in 
shaping policy and enforcing statutes and regulations, in either the 
criminal or civil context, and also to set the agency's enforcement 
priorities. I led the Division in the context of its licensing work, 
and crafted appropriate enforcement responses for various degrees of 
statutory violations in both civil and criminal matters.
    My experience as the Director of the Division of Gaming 
Enforcement, provided me the opportunity to use the skills I had 
developed as a lawyer with an enforcement background in evaluating and 
analyzing the appropriate action to take against a regulated entity in 
order to achieve the best result. In leading a large law enforcement 
agency, with both civil and criminal responsibilities over a highly 
regulated industry, I developed management skills that will serve me 
well if I am confirmed as Assistant Administrator for the Office of 
Enforcement and Compliance Assurance.
    As is reflected in the summary of my professional career, I have 
been involved in criminal or regulatory enforcement at both the Federal 
and State level for over 10 years. My experience working in very active 
enforcement offices has instilled a set of core principles that come 
with being in charge of a government enforcement office. These core 
principles include:
    First is fairness, for I believe that it is incumbent upon a law 
enforcement official to use the tremendous resources available in a 
fundamentally fair way, lest the entire process lose sight of the 
impact that it can have on individuals and communities.
    I also believe that as a law enforcement official, you can often 
times achieve better results by trying to work cooperatively with those 
who many would call your adversaries. Indeed, in my experience in the 
Division of Gaming Enforcement, I found that on many issues, even 
though the industry may have disagreed with a decision that was 
reached, the process of soliciting industry input and enlisting their 
counsel worked to ensure a strong cooperative relationship between the 
regulator and the regulated. I also believe that flexibility is a 
critical component to a cooperative approach, because with flexibility 
you can often times achieve the desired result quickly and with less 
cost.
    As a necessary corollary to a cooperative and flexible approach, 
however, is the willingness to pursue appropriate enforcement actions 
against those entities who are either unwilling or unable to conform 
their conduct to what is required. In the proverbial ``carrot and 
stick'' model, I believe that a good enforcement official has the stick 
and is not afraid to use it.
    Finally, a good enforcement official must have faith in the system; 
faith in the legislative process, which produces the laws that we must 
enforce; and faith in the legal system, which is the forum that we must 
turn to when controversies and cases need to be settled. My experience 
has taught me that the system works, and it is a system that I have 
enjoyed being a part of throughout my legal career.
    My experience, my commitment to public service, and my fundamental 
belief that our environmental laws provide the best guarantee that our 
Nation's natural resources will be protected, will allow me to lead the 
Office of Enforcement and Compliance Assurance. I can provide strong 
leadership, and can bring to the Office those core beliefs that I think 
are the mark of a good enforcement official. I expect to rely fully 
upon the experience and expertise of the very accomplished and 
dedicated staff of career employees in the Office of Enforcement and 
Compliance Assurance. I have met many of these dedicated staff and I am 
confident in their ability to assist me in the day-to-day management 
challenges and policy issues that may arise.
    I would like to assure all of the members of this committee, the 
President and Governor Whitman, that if confirmed I will apply myself 
with the same vigor and energy that have marked my career to date, and 
that I will work as long and as hard as necessary to ensure that our 
Nation's environmental laws are being enforced as intended by Congress 
firmly and fairly.
    At the end of the day, I will do everything in my power to live up 
to the promise that I have made to my three children, that this planet 
of ours will be a good and safe place to live. I will dedicate myself 
to a comprehensive enforcement program that will safeguard our water, 
our air and all of our Nation's precious natural resources.
    I believe that enforcement must be a vigorous and active component 
of the EPA's efforts to protect our natural resources, and I would very 
much appreciate the opportunity to apply my experience and my desire to 
enforce the important environmental laws that this Congress has put in 
place.
    I thank you for your patience this morning, and I am pleased to 
have this opportunity to answer any questions that you may have.
                                 ______
                                 
  Responses of John Peter Suarez to Additional Questions from Senator 
                                Jeffords

    Question 1. EPA Regional Offices are reportedly cutting enforcement 
office personnel in order to meet staffing reductions that the Bush 
Administration had originally proposed to implement by attrition in the 
agency's fiscal year 2002 budget request. What is the current staff of 
the total enforcement office?
    Response. It is my understanding that EPA Regional offices continue 
to manage their enforcement positions in a manner consistent with the 
Agency's fiscal year 02. budget as passed by Congress last Fall. 
Indeed, a current analysis shows projected Regional FTE utilization in 
enforcement is on target to meet the authorized level of 2,516.6 FTE. 
Projected FTE utilization for Headquarters and field (non Regional) 
components is currently 848.2 FM for a total end of year enforcement 
FTE projection of 3,366.7 (2,518.5 + 848.2),

    Question 2. Will you support further reductions in EPA enforcement 
personnel through attrition?
    Response. If confirmed, I intend to examine closely the resources 
and staffing levels and the allocation of those resources and staff to 
ensure that OECA is directing its resources to those areas where the 
most significant public health and environmental problems exist. If 
there is an identified need for more staff or resources, then I would 
represent and advocate for the Office's interests during the budget 
process, to ensure that adequate resources are being devoted to the 
mission of enforcement and compliance.

    Question 3. Do you think that the Enforcement division is currently 
overstaffed and whether such moves are warranted?
    Response. I have not yet had the opportunity to analyze the 
staffing needs of OECA, but intend to do so if confirmed. I believe 
that a careful examination of how resources are allocated would be 
helpful in evaluating whether our staffing needs are being adequately 
met, and I will endeavor to undertake such an analysis if confirmed. I 
am aware that the breadth of work required of OECA staff is expansive, 
and necessarily requires a sizable staff to perform effectively the 
mission of enforcement and compliance.

    Question 4. If confirmed, will you pledge to keep this committee 
appraised, in a timely fashion, of EPA enforcement staffing levels, 
enforcement staff vacancies, and the exact number of completed civil 
and criminal investigations and inspections?
    Response. Yes. I will also work with the committee to ensure that 
information regarding completed investigations and inspections is 
accompanied by adequate explanations, so that an accurate picture of 
OECA's work is provided. Moreover, I will also provide the committee 
with information relating to other performance measures, such as 
environmental impacts and pollution reductions achieved, so that the 
committee has a broad view of the accomplishments of the Office.

    Question 5. I have seen reports saying that regional enforcement 
staff are being asked to focus more on compliance assistance than on 
traditional enforcement. Please discuss your views on EPA compliance 
assistance activities.
    Response. I believe that compliance assistance, especially in the 
context of small businesses, is an integral part of the mission of 
OECA. Compliance assistance can often times bring more entities into 
compliance quicker by providing the entities with the information and 
assistance they need to conform their operations to what is requited by 
law. I also believe that a good compliance assistance program should be 
integrated into the core of the Office's work, so that it is available 
to be used when appropriate. However, I also believe that there are 
many instances where traditional enforcement actions, in either the 
criminal or civil context, are the appropriate first course of action 
and should be pursued notwithstanding the existence of a compliance 
assistance program. I therefore believe that a combination of 
compliance and enforcement efforts, in the proper balance, can achieve 
the best environmental results.
                                 ______
                                 
  Responses of John Peter Suarez to Additional Questions from Senator 
                                 Smith

    Question 1. Does the anticipated retirement of a large number of 
upper and mid-level EPA staff extend to OECA? If so, what steps would 
you recommend taking to fill those positions in order to avoid a 
negative impact on compliance and enforcement?
    Response. I am not aware of an anticipated ;departure of upper and 
mid-level staff in OECA in the immediate future. However, in order to 
assist with management challenges, the Agency recently began an 'Senior 
Executive Service mobility'' program whereby senior managers were given 
the opportunity to move to new and challenging positions within EPA. 
The result of this mobility program is that several senior staff have 
been assigned to various offices within the Agency, providing new 
leadership to the. offices. Within OECA, a new Deputy Assistant 
Administrator was named to the staff, along with a new office director 
for the Office of Regulatory Enforcement and a new Associate Assistant 
Administrator. All of these positions were filled by people with 
extensive experience in environmental law, and I expect that they will 
provide significant stability and leadership to OECA.

    Question 2. Mr. Suarez, what kind of skills could you bring to the 
position of Assistant Administrator for EPA's Office of Enforcement and 
Compliance Assurance from your previous positions in public service?
    Response. My professional background and experience is in 
enforcement work, in either the criminal or civil context, and I have 
been involved in prosecuting cases for my entire legal career. My 
skills include an ability to analyze the strengths and weaknesses of 
cases and thereby develop sound strategies on how to pursue an action, 
and also the ability to guide investigations so that whatever evidence 
is available is identified and developed properly--I also have a firm 
grasp on the challenges confronted when negotiating settlements or 
resolutions of cases, and believe that this skill will serve me well if 
confirmed. I also attempt to utilize a proactive approach to addressing 
problems or potential problems, so that the agencies I have been 
leading are able to take action before an issue escalates. In my 
previous experiences, I have also learned to work with diverse 
stakeholders, including industry, licensees, law enforcement, 
attorneys, and advocacy groups when developing or implementing 
programs. Finally, I believe my strong work ethic and proven ability to 
lead a large organization with an enforcement mission will help 
strengthen OECA.

    Question 3. Mr. Suarez, why do you think you are qualified to head 
the Office of Enforcement and Compliance Assurance?
    Response. My extensive background in enforcement programs with 
civil and criminal responsibilities, my successful management of large 
enforcement agencies, and my firm belief in the importance of our 
nation's environmental laws provide me with the experience and 
perspective that is necessary to head OECA.

    Question 4. Please explain to this committee your experience in 
providing management to large organizations.
    Response. My first experience in coordinating a law enforcement 
program came when I was in. the U.S. Attorney's Office and was named to 
serve *as the liaison to the Camden/Philadelphia High Intensity Drug 
Trafficking Area (HIDTA) Task Force. As the liaison for the U.S. 
Attorney's Office, I served to coordinate the program with our State 
and regional partners to ensure that our interests were preserved and 
that resources and priorities relevant to the Camden area were 
addressed by the Task Force, I then became the Special Assistant to the 
Director for the Division of Criminal justice, the statewide law 
enforcement agency in New Jersey. As the Special Assistant, I served as 
the director's principal assistant and helped him establish and enforce 
policies for a 600-person agency, including the identification of 
statewide enforcement priorities. I also coordinated enforcement 
activities with the 21 county prosecutors' offices and with the Federal 
and local law enforcement agencies.
    Thereafter, I served as the Director of the Division of Gaming 
Enforcement, the State law enforcement agency charged with enforcing 
the laws relating to the casino industry--in New Jersey. As the 
Director, I led a 400-person law enforcement agency that included 
criminal investigators, prosecutors, civil investigators, auditors, 
attorneys, accountants, computer specialists, and other professionals. 
As the Director, I established our enforcement priorities, led the 
Division in licensing matters, and guided numerous criminal and civil 
investigations. I also reviewed and approved all significant 
settlements with the regulated entities to ensure that the settlements 
were consistent with the Division's enforcement philosophy--Finally, I 
was responsible for proposing changes to the regulatory or legislative 
process that I felt were necessary to improve the Division's operations 
and to ensure that the integrity of the licensees and the industry was 
never compromised.

    Question 5. What is your enforcement philosophy?
    Response. I believe that first and foremost, a good enforcement 
official must be fair. Fairness must extend to all of the participants 
and stakeholders in the process, so that no side or perspective is 
excluded. Second, I believe that a good enforcement official must be 
willing to engage in a cooperative approach to achieving the results 
desired, and should always try to find areas where common interests 
merge. I also believe that flexibility is a critical component of a 
cooperative approach, and often times allows for solutions to problems 
or concerns quickly and efficiently. Third, I believe that a good 
enforcement official is not hesitant to take aggressive enforcement 
actions where appropriate. Indeed, I believe that a willingness and 
proven ability to pursue enforcement actions will serve as a deterrent 
to others and will serve to bring entities into compliance. Finally, I 
believe that enforcement officials must have faith in the laws and 
faith in the process for-enforcing them. I believe good enforcement 
'officials should be willing to express their views when shaping policy 
decisions, but must also enforce the policy decisions that are reached, 
firmly and fairly.

    Question 6. What do you think will be some of the challenges facing 
you as the Assistant Administrator for the Office of Enforcement and 
Compliance Assurance? How do you plan to address these challenges?
    Response. One of the significant challenges facing OECA in the 
immediate future will be in identifying and setting national 
priorities. In order to utilize the resources of the Office most 
effectively, those national priorities that have the most significant 
impact on public health and the environment must be identified, and a 
commitment must then be made to use OECA's resources to pursue those 
areas. If confirmed, I expect to work very closely with the ten Regions 
and the States to help identify possible national priorities for OF-CA 
and to then put in a place a plan for addressing and targeting the 
national priorities. Another challenge facing the Office is in the 
consistency of Enforcement actions throughout the Nation. I anticipate 
working with the Regional Administrators and regional enforcement 
coordinators to ensure that there is consistency in the enforcement 
work throughout the Nation. I also believe that there are more 
opportunities to provide better compliance assistance to certain 
sectors, especially certain sectors with large percentages of small 
businesses, and I will work with the Office of Compliance to identify 
those sectors and to coordinate compliance assistance efforts. Finally, 
I believe a significant challenge will be in the area of Superfund 
management, and if confirmed I will work closely with the Office of 
Site Remediation Enforcement and the Office of Solid Waste and 
Emergency Response to ensure that potentially responsible parties are 
being identified and pursued for cost recovery actions, and that as 
many National Priorities List sites are cleaned as is possible.

    Question 7. What kind of support will you put in place to help your 
transition into this new position?
    Response. Within the immediate office of the Assistant 
Administrator, there is a Principal Deputy Assistant Administrator and 
a Deputy Assistant Administrator, along with an Associate Assistant 
Administrator, all of whom have extensive experience with environmental 
laws and enforcement. All of the office directors of the constituent 
parts of OECA are also located in Headquarters, and together this staff 
will provide me with an incredible amount of experience and expertise 
in environmental enforcement. If confirmed, I intend to work very 
closely with all of the senior management and staff in OECA, and to 
call upon them for their advise and counsel on all important issues. I 
will work with my staff experts, other Assistant Administrators, and 
Office of General Counsel to ensure that I have the necessary 
information in order to make informed decisions.

    Question 8. You mentioned in your statement that you prosecuted 
cases at the Division of Gaming Enforcement. Please explain the outcome 
of these prosecutions.
    Response. During my tenure as the Director, the Division prosecuted 
hundreds, if not thousands, of enforcement cases against some of the 
more than 50,000 licensees in the industry. The enforcement cases 
ranged from minor infractions of regulations to significant violations 
that resulted in the revocation of an entity's or individual's license 
to do business. I personally prosecuted several high profile cases, 
including a case against Park Place Entertainment (formerly Bally's) 
for improperly engaging the services of a public official in Florida 
and then paying him to do little or no work. The results of that case 
were that Park Place was required to agree to extensive monitoring and 
reporting of its operations to the Division, and was also required to 
implement an extensive compliance program. Another noteworthy case that 
I personally prosecuted involved the President of Caesar's Atlantic 
City Casino. In that case, the President of Caesar s engaged in a 
pattern of misconduct and deceit, including misrepresenting certain 
facts to the Division and withholding information, that led the 
Division to seek revocation of his license. As a result of that 
prosecution, the President's license was revoked, and he was barred 
from working in the casino industry in any capacity for 5 years.

    Question 9. How do you measure success of your organization?
    Response. I believe that success should be measured by outcomes, 
and not purely by numbers or statistics. For OECA, I believe its 
success can and should be measured by the benefit of the outcomes it 
has achieved, and by the improvement in public health and the 
environment that is achieved through its enforcement work. Identifying 
the number of cases pursued or investigations completed can be a 
helpful guide in measuring success, but the measure should also include 
other variables such as scope of the work and impact on our 
environment.

  Responses of John Peter Suarez to Additional Questions from Senator 
                                Corzine

       TITLE VI: STATUS REPORT IN RESOLVING BACKLOG OF COMPLAINTS

    Question. What is the current status of EPA's efforts to resolve 
the backlog of compliance that have been filed under Title VI of the 
Civil Rights Act and to ask you for a status. report on their 
resolution.
    Response. Administrator Christine Todd Whitman announced the 
formation of the Title VI Task Force in May 2001. The Task Force was-
charged with resolving the backlog of administrative complaints filed 
with EPA alleging violations of Title VI of the Civil Rights Act of 
1964 and EPA's Title VI regulations.
    When Administrator Whitman announced the creation of the Title VI 
Task Force in May 2001, the Title VI complaint backlog consisted of 66 
open Title VI complaints. Twenty-one of those complaints had been 
accepted for investigation. Forty-five complaints were still ``under 
review,'' meaning that EPA hid not yet made a jurisdictional 
determination whether to accept them for investigation, reject them, or 
refer them to another agency for appropriate action.
    As of May 7, 2002, EPA has made jurisdictional determinations on 
all ``under review'' complaints, with the exception of five complaints 
which are held in suspension pending the outcome of parallel related 
litigation. The complaint backlog assigned to the task force has 
currently been reduced to 38, several of which are very close to 
resolution. Below is a summary status report:


            Current Status of Title VI Cases (66 cases filed)
------------------------------------------------------------------------

------------------------------------------------------------------------
Resolved after investigation         2
 initiated.
Rejected...........................  20
Withdrawn..........................  6
Referred...........................  1
Currently under investigation......  27
Suspended for pending litigation...  5
Held for informal resolution or ADR  5
------------------------------------------------------------------------

                                 ______
                                 
 Responses of John P. Suarez to Additional Questions from Senator Wyden

    Question 1. In your testimony you stated that you believe in the 
polluter pays principle. Since the current Administration has taken the 
position on Superfund--EPA's most costly program--that the tax on 
industries responsible for environmental contamination should not be 
re-instituted, the burden for the nation's toxic cleanup will fall, not 
on the polluter, but on taxpayers. How do you plan to reconcile your 
belief in the polluter pays principle with the Administration's view?
    Response. I am firmly committed to the polluter pays principle. It 
is my understanding that although the tax on industries has expired, 
EPA has continued to pursue potentially responsible parties (PRPs) to 
contribute to clean up costs at sites identified on the National 
Priorities List. I plan to continue EPA's success in maximizing the 
participation of responsible parties at Superfund sites. As is 
reflected on the accompanying charts, OECA continues to work to 
identify and pursue PRPs, and its work has ensured that in over 70 
percent of the long-term Superfund cleanups , PRPs have borne the cost 
of that cleanup. Since the inception of Superfund, responsible parties 
have committed more than $20 billion to clean up or to reimbursing 
EPA's costs. My understanding is that in only those instances where 
there is no identifiable PRP or where the PRP is not able to pay for 
site cleanup, then moneys from the Superfund Trust Fund will be used to 
take remedial action. If confirmed, I will ensure that OECA continues 
to aggressively pursue PRPs and cost recovery actions against those 
entities, while applying the guidelines of EPA's Administrative 
Reforms, to ensure that as many sites as possible are being cleaned or 
remediated by the polluters themselves in a fair manner. EPA's 
enforcement program has been successful in making the polluter pay, and 
I will make every effort to continue these impressive accomplishments.

    Question 2. When we met in my office and again in your written 
testimony, you spoke of the expertise of the EPA enforcement staff and 
how you will rely on that expertise to help you enforce the nation's 
complex environmental laws. Generally, individuals come to an executive 
position with years of experience upon which they base high-level 
decisions, but given your inexperience with environmental law, when 
faced with a difficult choice, on what will you base your decision when 
the advice of your staff conflicts with that of equally forceful 
industry advocates?
    Response. As is reflected in my resume, my background includes many 
years of experience in executive enforcement decisionmaking roles, 
including as the Director of a statewide law enforcement agency in 
which I was responsible for making policy decisions affecting 
significant interests. To the extent that an issue arises in which 
there are competing views between EPA staff and industry advocates, I 
will attempt to gather and analyze as much information as possible from 
all of the stakeholders in an issue, and then make an informed decision 
that is based upon that information and analysis. The most significant 
factors in such an analysis will be the relevant Federal law coupled 
with an evaluation of the environmental and human health impact as a 
result of the decision to be made.

    Question 3. The Public Employees for Environmental Responsibility 
(PEER) distributed a data package to the Senate detailing your record 
of prosecutions in New Jersey. This information suggests that you have 
been involved in only a small number of criminal prosecutions, many of 
which the State lost. It is my understanding that when you met with the 
Senate staff on May 6, 2002, you stated that you believe this 
information to be false and that it misrepresents your record. After 
investigating PEER's data my staff learned this information originated 
with Transactional Records Access Clearinghouse, an organization which 
receives data directly from the offices of the U.S. Attorney's General, 
and that has a proven reputation for reporting accuracy. Would you 
explain this discrepancy and please provide the committee with 
documents which verify your assertions regarding your record of 
prosecutions?
    Response. I am not familiar with the Transactional Records Access 
Clearinghouse, nor am I familiar with what other sources PEER relied 
upon when gathering their data, so I cannot comment on those sources or 
their reliability. However, several major discrepancies between what is 
reported and what is accurate are apparent. What is clear is that my 
record as an Assistant U.S. Attorney, as the Special Assistant to the 
Director of the Division of Criminal Justice, and as the Director of 
the Division of Gaming Enforcement is marked by productivity and 
effective and aggressive enforcement. For example, as is reflected in 
the letter of endorsement received from Michael Guadagno, Chief of the 
Fraud and Public Protection Division of the U.S. Attorney's Office in 
New Jersey and one of my former supervisors, I was one of the most 
productive members of the Office and I never lost a case that I tried. 
I received the U.S. Attorney General's Directors Award from Attorney 
General Janet Reno for the successful prosecution of the Abdullah's, an 
Atlantic City street gang. As is reflected in my performance 
evaluations, copies of which are attached, I consistently received the 
highest possible rating for AUSA's in the U.S. Attorneys Office, and my 
supervisors comments reflect that my productivity and performance was 
among the best in the office. I received the New Jersey State Bar 
Association Professional Lawyer of the Year Award for 1999, which 
speaks to my integrity and professionalism as recognized by the State 
Bar, and was honored by the New Jersey Hispanic Bar Association for my 
leadership and success in the legal community. I was the lead 
prosecutor in several other high profile cases, including the 
successful prosecution of the former President of the Camden City Board 
of Education (US v. Bey) for her theft of honest services from the city 
of Camden, and the successful prosecution of the clerk to the Supreme 
Court of New York for tax evasion (US v. Rakov). My record in New 
Jersey reflects in many ways my views of effective enforcement, in that 
a good enforcement official must be willing and able to use the tools 
available, such as criminal prosecution, to ensure that people and 
entities are complying with their legal obligations.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

           Summary of Trials Prosecuted by John Peter Suarez

Assistant U.S. Attorney in the District of New Jersey, September 1992-
        January 1998

    1. United States v. Rita Fabiani and William Richman; Spring 1997; 
before Hon. Mary Little Cooper. A husband-and-wife bank fraud, wire 
fraud, and money laundering case arising out of the investigation into 
a multi-million dollar Ponzi scheme operated by Fabiani and Richman. 
Defendants would entice investors to purchase foreclosed properties to 
be immediately resold for a substantial profit. Defendants used all 
proceeds to maintain a lavish lifestyle and stole over 8 million from 
investors. Defendant Richman proceeded to trial (wife was found 
incompetent due to head injury suffered after indictment). First trial 
resulted in a hung jury. Second trial began about 3 weeks after the 
first, and resulted in a guilty verdict. Defendant Richman sentenced to 
approximately 70 months imprisonment.
    2. United States v. Anthony Iezzi; Spring/summer 1996; before Hon. 
Joseph H. Rodriguez. A bank fraud case arising from the investigation I 
led in the Fabiani/Richman Ponzi scheme case (see item below). 
Defendant found guilty and sentenced to prison.
    3. United States v. Robert ``Hanif Abdullah'' Simpson, et al.; 
Winter 1996; before Judge William Bassler. A 22-defendant drug 
conspiracy and distribution case, along with RICO charges for attempted 
murder, against an Atlantic City street gang operating out of the 
Resort Courts housing projects. These 22 defendants, along with 2-3 
others, were known as the ``Abdullahs'' and were selling heroin and 
cocaine in the projects for years. Myself and another AUSA (Jeremy 
Frey) conducted a 6-month wiretap of various telephones used by the 
defendants, then indicted them. Trial began in January 1996 with six 
defendants proceeding to trial, and during the course of 2 months of 
trial, every defendant eventually pleaded guilty. Lead defendant 
received a sentenced of 188 months imprisonment, with all the others 
sentenced to prison terms (except for the wife and girlfriend). NOTE: I 
received the Attorney General Director's Award from Janet Reno for this 
successful prosecution, received a letter of commendation from Director 
Louis Freeh of the FBI, and received an honorary resolution from the 
Atlantic City Council thanking us for the efforts in conjunction with 
this prosecution.
    4. United States v. Harris Rakov; Winter 1995 (?); before Judge 
Alfred J. Lechner. A tax fraud case against the clerk of the New York 
court system for filing false tax returns in which he failed to declare 
as income interest that he received on loans that he had given to 
friends and colleagues. Defendant found guilty.
    5. United States v. Rodolfo Bethancourt, et al.; Summer 1994; 
before Judge Garrett E. Brown. A multi-defendant drug importation 
conspiracy case, in which the defendants agreed to ship cocaine through 
McGuire Air Force Base. Defendant Bethancourt went to trial, and was 
found guilty and sentenced to at least 10 years.
    6. United States v. Vincent and Susan Maglione; May 1994; before 
Judge Joseph H. Irenas. A husband-and-wife tax protestor tax fraud 
case, in which the defendants would send fictitious tax liens to people 
and attempt to collect through the IRS/tax returns. Both went to trial, 
he before the judge, she before a jury. Both found guilty. Husband 
sentenced to jail, wife sentenced to probation over the objection of 
the Government.
    7. United States v. (M/V Targa case); 1993; before Judge H. Lee 
Sarokin. A multi-defendant drug importation conspiracy case. Defendants 
were crewmembers of the M/V Targa who transported large quantities of 
cocaine from Central America to the Port of Newark for sale. At least 
one defendant (a Philipino crew member) went to trial, and was found 
guilty. Sentenced to at least 10 years imprisonment.
    8. United States v. Sassman; November 1993; before Judge Jerome B. 
Simandle. A theft of interstate commerce conspiracy. Multi-defendant 
case, with one defendant going to trial and found guilty and sentenced 
to prison.
    9. United States v. ; summer/fall 1993; before Judge Dickinson 
Debevoise. A drug distribution case arising from the Trenton Weed & 
Seed program. Defendant found guilty and sentenced to prison.1
    10. United States v. Fahim Sabir, et al.Spring of 1993 (with Patty 
Shwartz), before Judge Dickinson Debevoise. Multi-defendant drug 
distribution conspiracy case. Both defendants that went to trial were 
found guilty. Nadeem Sheikh sentenced to 72 months; Jang Baz Kahn 
sentenced to 72 months.
    The above summary reflects 11 trials (one was a retrial due to a 
hung jury), all of which, including the case with the hung jury, 
resulted in the defendants who went to trial being found guilty. No 
defendant was ever acquitted in a trial I prosecuted.
    A couple of other noteworthy prosecutions: I was the prosecutor who 
investigated the allegations of fraud and abuse in the Camden School 
Board. As a result of our investigation, the President of the School 
Board, Elaine Bey, pleaded guilty to theft of honest services, and was 
sentenced to prision. (United States v. Elaine Bey). I also began the 
investigation into allegations of corruption by former Mayor of Camden 
Arnold Webster. While I was working on the case, we put many witnesses 
in the grand jury and learned that Mayor Webster had embezzled funds 
from Camden by continuing to receive his salary as School 
Superintendent while serving as Mayor. We also learned that Mayor 
Webster had collected vacation and sick leave for which he was not 
entitled. The case was resolved after I left the office by way of plea 
to tax charges.
    I also investigated and prosecuted the theft of client funds by an 
accountant (United States v. Dudnick), which resulted in a guilty plea 
and prison sentence for the defendant; the theft of funds by a bank 
manager from the Farmers & Merchants Bank (United States v. Lapsins); 
and I began the investigation into campaign finance violations by 
business executives during the 1996 Presidential election. While 
assigned to the Trenton office, I prosecuted several significant weed 
and seed cases, including United States v. Ernest Wilkerson, a career 
offender and public employee from the city of Trenton who was selling 
crack cocaine, and United States v. Salim Davis, in which the defendant 
was convicted after he sold both a firearm and drugs to undercover 
agents. In addition to these cases, while in the Frauds and Public 
Protection Division, I prosecuted United States v. Michele Carnevale et 
al., a case involving the interstate shipment of child pornography. In 
this case, the search of the defendants house discovered a substantial 
amount of child pornography and other obscene material, and resulted in 
both defendants pleading guilty.
    In addition to the Attorney General Director's Award, the U.S. 
Attorney for the District of New Jersey awarded me a Special 
Achievement Award for my efforts in the office. I was also honored by 
the N.J. State Bar Association as one of their Professional Lawyers of 
the Year for 1999, and was also a Hispanic Bar Association Honoree for 
my work in the legal community and my leadership in the Hispanic 
community.Excerpts of Performance Evaluations for

                                 ______
                                 
      Job Performance Evaluations While an Assistant U.S. Attorney

    While serving as an Assistant U.S. Attorney in the District of New 
Jersey, I received 4 yearly performance evaluations. The following 
summarized the results of those evaluations:
    1. Jan. 1993-Dec. 1993--Rated Excellent (2d highest possible 
rating); comments from my evaluation include such observations as Mr. 
Suarez ``is well on his way to becoming a truly outstanding Assistant 
U.S. Attorney . . .'', and that he ``is a very gifted trial lawyer . . 
. and is one of our best young trial lawyers.''
    2. Jan. 1994-Dec. 1994--Rated Outstanding (Highest possible 
rating); comments include ``Mr. Suarez consistently enhances the 
mission of the Office with respect to the development and prosecution 
of cases . . . displaying virtually without exception, habits of 
productivity and dependability which ensure that all assigned cases are 
processed efficiently and expeditiously with a minimum of supervisory 
resources, [and] regularly seeks more challenging case assignments . . 
.''
    3. Jan. 1995--Dec. 1995--Rated Outstanding (Highest possible 
rating); comments include ``Mr. Suarez has effectively and 
enthusiastically handled a challenging caseload. He is an extremely 
efficient and hard worker . . .'' and that ``Mr. Suarez has 
demonstrated outstanding judgment in determining which cases should be 
prosecuted and which cases should be declined.''
    4. Jan. 1996--Dec. 1996--Rated Substantially Exceeds Expectations 
(Highest possible rating); comments include that Mr. Suarez 
``enthusiastically takes on additional work and continues to be a 
favorite of agents who want cases 'moved.' Without question, Mr. Suarez 
has substantially exceeded this office's expectations for overall 
productivity.''
                                 ______
                                 
  Responses of John Peter Suarez to Additional Questions from Senator 
                                 Boxer

    Question 1. Last year's VA-HUD Appropriations Conference Report 
(FY02) directs the Administration to restore enforcement positions to 
their FY01 Operating Plan levels. The fiscal year 01 Operating Plan as 
enacted provided for 3,536.8 FTEs in Federal enforcement. Headquarters 
is allocated 895.5 positions and the Regions are allocated 2,641.3 
positions.
    You indicated in a response to a question from Senator Jeffords 
after your confirmation hearing on enforcement staffing that total end 
of year FTEs in enforcement are currently projected to be 3,366.7 This 
represents a staffing shortfall of 170 positions in enforcement 
nationwide compared to FY01 Operating Plan levels. You also state in 
your answer to Senator Jeffords question that the Regions ``continue to 
manage their enforcement positions in a manner consistent with the 
Agency's FY02 budget as passed by Congress'' and that they are on 
target to reach 2, 516.6 FTE's in the Region. This number is 
approximately 125 positions short of fiscal year 01 Operating Plan 
levels. The shortfall for Headquarters and Non-Regional Offices is 47 
positions.
    Your response fails to take into account the 170 positions 
nationwide that you have indicated are not targeted for restoration at 
any time this year as directed by Congress.

    Question 1(a).Please explain your understanding of EPA's plans to 
ensure that enforcement positions are restored to fiscal year 01 
Operating Plan levels as provided for in the VA-HUD Conference Report.
    Response. The Agency restored 145 workyears to the enforcement 
program consistent with funding provided by Congress in the Agency's 
fiscal year 02 funding bill. In that bill, Congress restored $15.0 
million to the enforcement program, of which the Agency allocated 
approximately $14.2 million to payroll and the remaining $800,000 to 
personnel related, non-payroll costs (such as training, supplies, and 
so forth). When added to base salary funds, the restoration provided a 
total enforcement salary budget of $328.2 million, sufficient to 
support the proposed FTE ceiling of 3,406.8 FTE at an average cost of 
roughly $96,300 per FTE.
    Although the Agency applied the entire $15.0 million from the 
fiscal year 02 appropriations bill to fund enforcement FTEs, the 
enacted amount was not sufficient to fund enforcement FTE at the fiscal 
year 01 enacted ceiling level.

    Question 1(b). Please indicate what efforts have been undertaken to 
date to restore these positions, both at Headquarters and in the 
Regions.
    Response. As described above, the Agency applied the entire $15.0 
million from the fiscal year 02 appropriations bill to fund enforcement 
FTEs. My understanding is that EPA is continuing to manage to its 
proposed FTE ceiling consistent with funding provided by the Congress 
in the fiscal year 02 appropriations bill. Actual FTE utilization for 
the year is expected to be very close to the proposed 2002 FTE ceiling.

    Question 1(c). What specific actions would you take, if confirmed, 
to assure that EPA enforcement positions are restored to fiscal year 01 
levels?
    Response. If confirmed, I will continue to ensure that the 
enforcement program at EPA manages its funding and personnel levels 
consistent with those proposed in the fiscal year 02 operating plan. I 
will also examine closely the resources and staffing levels at both 
Headquarters and in the Regions to ensure that the Office of 
Enforcement and Compliance Assurance (OECA) is directing its available 
resources to those areas where the most significant public health and 
environmental problems exist. To the extent that enforcement positions 
allocated to OECA become vacant, I will work with the administrative 
and personnel offices to ensure that OECA is actively recruiting and 
hiring qualified employees to meet EPA's staffing needs and maintaining 
the Agency's authorized staffing levels. If additional staffing needs 
are identified, I will advocate for whatever additional resources are 
necessary to ensure that our Headquarters and Regional offices are able 
to continue to pursue the Agency's mission effectively.

    Question 1(d). Are you willing to vigorously enforce the laws even 
when you or the Administration do not agree with those laws? Have you 
had to do so in any prior positions? If so, please explain.
    Response. Yes. If confirmed, I believe that as the Assistant 
Administrator for OECA, my job will be to enforce our nation's 
environmental laws as they are written, firmly and fairly. I also 
believe that one of the roles for the Assistant Administrator of OECA 
is to ensure that enforcement's concerns and issues are considered when 
decisions are made regarding proposed statutory or regulatory 
amendments, and to articulate what impact proposed changes might have 
on enforcement actions. As to my own experiences in enforcing laws that 
an Administration may disagree with, I have had several occasions where 
I have been involved in enforcement actions that were contrary to the 
prevailing view of an Administration.
    For example, when I was the Director of the Division of Gaming 
Enforcement, I initiated several civil actions against online gambling 
enterprises seeking to enjoin their activity, which is illegal in the 
State of New Jersey and in violation of Federal law. At the time that 
we began our actions, the New Jersey legislature was considering a 
proposal to amend New Jersey's laws and Constitution to allow for 
online gambling. The casino industry was also lobbying the 
Administration to allow for some forms of online gambling to be 
permitted. Although the civil actions that we commenced were 
controversial, we believed that New Jersey's citizens needed to be 
protected from unscrupulous online gambling operators and that action 
needed to be taken to ensure that entities seeking to do business in 
New Jersey were in compliance with State law.

    Question 1(e). Do you agree to fully cooperate with the Congress in 
a timely manner on requests for information, including requests for 
operating plans or other documents related to enforcement issues? Will 
you appear to discuss such issues when requested by a subcommittee, as 
well as by the full committee?
    Response. Yes, I will fully cooperate with Congress and respond to 
requests for information or documents related to enforcement issues in 
a timely manner. I will also appear before any committee or 
subcommittee to discuss congressional requests for information or 
documents, and will provide the members of such committees and 
subcommittees with information and explanations that may assist the 
members in understanding the work performed by OECA.

    Question 2. The recent resignation of Eric Schaeffer from his post 
as Director of the Office of Enforcement and Compliance Assurance's 
Office of Regulatory Enforcement (ORE) underscored the level of 
frustration that is felt by many in the Office of Regulatory 
Enforcement.
    According to Mr. Schaeffer, one of his concerns while still 
Director of ORE was that he was asked by his superiors to withdraw 
offers of employment to future enforcement personnel, despite the 
availability of adequate funding. He was particularly concerned that 
entire areas of specialization are currently without any staffing.

    Question 2(a). Do you believe it is important to retain experienced 
staff? Do you have a plan to ensure that valuable employees are 
retained?
    Response. Yes, I believe it is very important that experienced 
staff in OECA are retained so that their expertise and advice are 
available to assist me, if confirmed, in the management and policy 
challenges facing the Office. I have been very impressed with the 
overall competence and professionalism of the staff at OECA, and 
believe that human capital is one of the biggest and best assets that 
OECA can bring to bear on important environmental issues. I also 
believe that by providing senior management and staff with new 
challenges and experiences, either through the Senior Executive Service 
mobility program, rotational assignments from other EPA offices, 
Intergovernmental Personnel Agreements, training, or through growth and 
promotion within the Office, that senior staff will continue to respond 
to the challenges faced by the Office and will maintain their desire to 
stay.

    Question 2(b). What is your plan for ensuring that critical areas 
of specialization are properly staffed?
    Response. If confirmed, I intend to examine fully the resources 
allocated to OECA and to ensure that resources are being directed 
toward those areas that have the most significant impact on public 
health and the environment. If there is a staffing need in a critical 
area, then I will ensure that personnel and resources are allocated to 
address that need. To the extent that additional resources may be 
needed to staff a critical area of specialization, then I believe that 
the Assistant Administrator for OECA should be advocating for those 
additional resources and directing them to that critical area so that 
the mission of enforcement is not compromised.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



NOMINATIONS TO THE CHEMICAL SAFETY AND HAZARD INVESTIGATION BOARD: JOHN 
                      BRESLAND AND CAROLYN MERRITT

                              ----------                              


                        THURSDAY, JULY 18, 2002

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
room 406, Senate Dirksen Building, Hon. James Jeffords 
[chairman of the committee] presiding.
    Present: Senator Jeffords.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. The hearing will come to order.
    Good morning and thank you for being here. Ms. Merritt and 
Mr. Bresland, by accepting the nomination of this position, you 
are showing all of us your commitment to public service, and I 
want to thank you for that.
    You have been nominated to be members of the U.S. Chemical 
Safety and Hazard Investigation Board. The mission of this 
Board, promoting chemical safety, has always been an important 
one. But in the wake of September 11, we are looking at our 
homeland safety and security with heightened concern and 
scrutiny. The responsibilities of the Chemical Safety Board 
Members are challenging, and I look forward to hearing from 
each of you as to how you are prepared to meet these 
challenges.
    Mr. Bresland, pleased to have you here, and please proceed.
    Mr. Bresland. If I may, Mr. Chairman, before I start I 
would like to introduce some of my family members.
    Senator Jeffords. You may do that.
    Mr. Bresland. My wife Beth is sitting behind. She is an 
oncology social worker.
    Senator Jeffords. Give me a little wave back there. Yes, 
all right, fine.
    Mr. Bresland. She is an oncology social workers at 
Morristown Memorial Hospital in Morristown, New Jersey. And 
also my niece and nephew, Michelle and Carrie Kimmel
    Senator Jeffords. Welcome.
    Mr. Bresland. And my grandniece, Shea Bugijinski, who lives 
in Washington, DC, and has actually just started work here 
after graduating from university.

  STATEMENT OF JOHN S. BRESLAND, PRESIDENT, ENVIRONMENTAL AND 
                  SAFETY RISK ASSESSMENT, LLC

    Mr. Bresland. Thank you, Mr. Chairman, and distinguished 
members of the committee. My name is John Bresland. I am 
honored to appear before you to tell you about my background 
and what I hope to accomplish if confirmed as a member of the 
Chemical Safety and Hazard Investigation Board.
    Let me also say that I am very grateful for the support of 
Senator John Corzine and Representative Rodney Frelinghuysen 
from my home State of New Jersey.
    My reasons for being honored by this nomination are both 
personal and professional. I was born in Londonderry, Northern 
Ireland. My education in chemistry took place in Northern 
Ireland and in England. I came to the United States 36 years 
ago, and I spent all of these years working in the chemical 
industry in the United States. I became a United States citizen 
in a ceremony at Independence Hall in Philadelphia in 1983. 
Both the United States and the chemical industry have been good 
to me and they have allowed me to live in freedom and in 
comfort.
    After many years of experience in business, I have the 
desire to get involved in public service and return some of the 
benefits that I have received over the years. I am fully 
committed to the public service mission of the Chemical Safety 
Board, which is to prevent accidents, save lives and protect 
the environment by conducting investigations, and advocating 
safety recommendations.
    In 1966, I joined the Allied Chemical Company, which is now 
called Honeywell International in West Virginia. I continued to 
work for Honeywell until the year 2000. During that time, I 
worked in chemical plants in West Virginia, Philadelphia, 
Pennsylvania, Hopewell, Virginia, and my last 5 years with 
Honeywell were spent at their corporate headquarters in 
Morristown, New Jersey.
    My experience in the chemical industry has, I believe, been 
broad-based. It includes chemicals manufacturing. I have been 
an operations manager and a plant manager in complex chemical 
plants. My experience includes management. I was responsible 
for the operation of a facility with 300 employees, both union 
and non-union. I am experienced in health, safety and 
environmental compliance. I have been responsible for chemical 
plants compliance with Federal, State and local laws and 
regulations.
    I have extensive experience in community outreach. I have 
run community outreach panels for Honeywell, made a point of 
personally visiting plant neighbors and listening to their 
concerns when they have complaints about plant operations. I 
was chairman of the American Chemistry Council's National Plant 
Manager and Community Leaders Training Program.
    And finally, with regard to chemical process safety, when I 
retired from Honeywell, I formed my own consulting company 
specializing in the areas of compliance with OSHA's Process 
Safety Management Program and EPA's Risk Management Program. I 
also worked as a staff consultant with the Center for Chemical 
Process Safety, which is part of the American Institute of 
Chemical Engineers. Currently, I am helping to develop chemical 
process safety books, including one on reactive chemicals 
management, which as you may know is the subject of a current 
major ongoing investigation at the Chemical Safety Board.
    Mr. Chairman, I believe that my experience will blend with 
the solid professional experience and dedication of the current 
Board members and that of the nominee for Chair, Carolyn 
Merritt. I would hope to contribute toward consensus on the 
agency's mission and activities. In my view, the priorities of 
the Board over the next 5 years should be as follows. First and 
foremost, increase the number of accident investigations. Next, 
step up the work that the Board is already doing to be an 
advocate for the implementation of CSB safety recommendations 
by industry and by government.
    This means continuing to work in a cost-effective manner 
with the Board's stakeholders, including those people who live 
around chemical plants, the chemical process industry and its 
trade organizations, labor unions, Members of Congress and 
congressional staffs, and last but not least, EPA and OSHA.
    I believe Boardmembers and the Chief Operating Officer must 
manage the agency in a sound and prudent manner. If confirmed, 
I will be committed to developing a close and effective working 
relationship with the new Chair, with the other Boardmembers 
and with the current staff of the agency.
    Finally, Mr. Chairman, in today's world of concern about 
terrorism, I would hope that the agency could explore with your 
committee ways to use the expertise of the Chemical Safety 
Board to improve homeland security with regard to chemical 
facilities.
    The goal of all of these priority actions, of course, will 
be an improvement in chemical plant process safety, saving 
lives and protecting the environment. If at the end of my 5-
year term, I could point to success in those areas, I believe 
that my time in Washington will have been well spent. I am 
looking forward to the challenges that face me with humility 
and enthusiasm. If you honor me with confirmation, I look 
forward to working with you and with your staffs.
    Thank you again for the opportunity to appear before you 
and I will be pleased to answer any questions that you may 
have.
    [The prepared statement of Mr. Bresland follows:]
    Senator Jeffords. Thank you. An excellent statement.
    Mr. Bresland. Thank you, Mr. Chairman.
    Senator Jeffords. Ms. Merritt?

 STATEMENT OF CAROLYN W. MERRITT, FORMER SENIOR VICE PRESIDENT 
      FOR ENVIRONMENT, HEALTH AND SAFETY, IMC GLOBAL, INC.

    Ms. Merritt. Mr. Chairman and members of the committee, 
thank you for the opportunity to appear before you today. My 
name is Carolyn Merritt and I am currently a resident of 
Palatine, Illinois. I am married to Stephen and have been for 
35 years. We have two grown children, one in Los Angeles and 
one in Austin, Texas.
    I am honored and humbled by this nomination from the 
President to the position of chairman and CEO of the U.S. 
Chemical Safety and Hazard Investigation Board. In a career 
that spanned over 30 years, I have had the satisfaction of 
working as a high school teacher, as a general foreman, 
environmental manager and corporate officer. I have been proud 
of my accomplishments, but I believe that it would be my utmost 
privilege to now work in government service.
    I am excited by the opportunity to contribute my 
experiences and knowledge to the U.S. Chemical Safety and 
Hazard Investigation Board. I believe this agency can 
effectively fulfill its mandate to determine root cause of 
chemical accidents and to recommend and advocate safety 
improvements in industry. Chemical accidents cost human lives, 
contaminate the environment, and destroy production facilities 
and jobs. The Chemical Safety Board can and does help to 
prevent these losses.
    In every position I have held, I have worked to be an 
effective leader, communicator and problem solver. My 
professional experience has included work in facilities that 
manufactured chemicals, fertilizers, pharmaceuticals, munitions 
and pulp and paper. I have worked in research, quality control, 
environmental compliance, worker safety, and as an executive 
manager.
    From 1994 to 2001, I served as Senior Vice President in 
Environment, Health and Safety for IMC Global, a billion-dollar 
agricultural chemicals company with as many as 12,000 
employees. From the early 1980's to 1994, I held environmental 
and safety management positions with Tennessee Chemical Company 
and Champion International Corporation.
    But my most rewarding experience has been working with 
communities, industrial managers and workers to reduce the risk 
that a facility will suffer a disastrous chemical incident, and 
to prepare for emergency response in the event that one should 
occur. OSHA's 1993 process safety management standard was an 
important milestone in improving plant safety and protecting 
workers, residents and the environment. I have worked with two 
different industries guiding management and operating staff as 
they implemented these rules. I believe these regulations have 
saved lives and prevented substantial environmental damage.
    The chemical industry in which I have spent most of my 
career is an important contributor to our economy and quality 
of life. At the same time, I have seen that government has a 
significant role to play in verifying the safety and compliance 
of chemical manufacturing facilities and facilities that use 
hazardous chemicals in their processes. The Chemical Safety 
Board will work in partnership with regulatory agencies and the 
regulated community and Congress to determine how best to use 
the lessons learned from incident investigations to prevent 
recurrences.
    Prevention has to be the ultimate reason for regulation. 
The Chemical Safety Board can be an important vehicle to 
achieve effective prevention.
    Mr. Chairman, the Board has gone for more than 2 years 
without a Chair and a full-time Chief Operating Officer or a 
full complement of Boardmembers. If John Bresland, President 
Bush's nominee for the other open Board position, and I are 
fortunate enough to be confirmed, the Board will for the first 
time have all five seats filled. The combination of academic, 
industrial, and agency experience represented on the Board will 
create a highly effective management group. I believe the CSB 
is poised to achieve the results that Congress intended when it 
was created by the 1990 Clean Air Act Amendments.
    My executive and organizational skills can move this 
organization forward, improve morale and effectiveness, and 
achieve the support of this committee, sister governmental 
agencies, and industry. I hope you will grant me the 
opportunity to lead this organization to a more effective 
future.
    I thank you for the opportunity to present this testimony, 
and if you have any questions, I would be happy to answer them.
    [The prepared statement of Ms. Merritt follows:]
    Senator Jeffords. Thank you very much, both of you, for 
excellent statements.
    Did you have family members you would like to----
    Ms. Merritt. No, I do not have anyone here today. My 
husband is working.
    [Laughter.]
    Senator Jeffords. OK, fine. I will have a few questions for 
you.
    In March, 2002, the Inspector General of the Federal 
Emergency Management Agency, FEMA, published a report on issues 
regarding management accountability and control at the Chemical 
Safety Board. The report had 10 recommendations for improving 
the management and accountability of the Board. Could you 
comment on the recommendations and what you, if confirmed as a 
Boardmember, would do to implement those recommendations?
    Ms. Merritt, start with you.
    Ms. Merritt. Yes, I have seen the report and read it, and 
have talked to the different Boardmembers about it. Many of 
those provisions have already been implemented--five of them 
concerning more of the management areas, and the other six are 
in place and expect to be implemented by the end of the year. I 
think it was a reasonable and a good review of the issues that 
the Board has faced in the last several years.
    It would be my expectation to be responsible for making 
sure that those provisions have been implemented in a timely 
fashion, along with the other Boardmembers, and also that they 
are sustained; that we move forward as Congress expects us to 
to achieve our mission, to know where we are going, to do it 
cost-effectively, and to be an agency that others will look up 
to as having provided a service to the country.
    Senator Jeffords. Mr. Bresland?
    Mr. Bresland. Mr. Chairman, I have read the report and I 
have read the follow-up actions that the Board submitted back 
to the Inspector General. The latest I hear is that five of 
those recommendations have been completed by the Board and the 
other five are scheduled to be completed by the end of 
September. I certainly feel that the key action for Mrs. 
Merritt and for myself, if we are privileged to be nominated to 
the Board, is to move ahead and work--all five Boardmembers 
work together.
    Up until now, they have only had three Boardmembers, and we 
all want to work together as efficiently and as collegially as 
possible, and we also have the opportunity to work with the new 
Chief Operating Officer for the agency, Mr. Jeffers, who used 
to run OSHA. I have met with him and developed what I think is 
a very good starting relationship with him. So I am very 
optimistic that in the future we can move ahead and make 
significant improvements.
    Senator Jeffords. Good.
    Mr. Bresland, in your statement you say that you hope that 
the expertise of the Board could be used to improve homeland 
security with regard to chemical facilities. As you know, the 
committee, working with other committees in the Congress, is 
working on the Department of Homeland Security legislation. I 
would be interested in hearing how you think the Chemical 
Safety Board should be involved in homeland security.
    Mr. Bresland. Well, the Chemical Safety Board has expertise 
in the chemical process area and they have got process 
engineers, chemical engineers, mechanical engineers who know a 
lot about the operation of chemical plants. And they have 
probably more concentrated expertise in Washington than most of 
the other agencies that deal with this, with all due respect to 
EPA and to OSHA.
    I would think that a key action that the Board could get 
involved in would be evaluating chemical facilities for site 
security, having a look at the way chemical facilities are 
secured from terrorist attacks; looking at ways to improve 
chemical processes; if there is an incident, to mitigate the 
effects of such an incident.
    I was coming down on the train from New Jersey on Monday 
night, and as you come on the train, you go by chemical plants 
with fences around them and you just wonder what is inside that 
chemical plant and what the impact would be if somebody decided 
to get in there. So I think we can use our expertise in 
cooperation with your committee members and with EPA and with 
OSHA to develop improved safety and security for chemical 
plants.
    Senator Jeffords. Ms. Merritt?
    Ms. Merritt. Yes, I agree with Mr. Bresland. Having had 
responsibility for chemical facilities, its safety and 
security, I know that where you draw your perimeter when you 
begin to look at plant security is important. Under the process 
safety rules, they do--it does include looking at plant 
security, so those provisions are already there. I think 
industry has looked at what its most significant risk is, and 
like the barbed wire fence that John just mentioned, it was 
mostly to keep vandals out or people who might steal product.
    I think working with the other agencies and with industry 
to understand now what the risk might be, I think everyone 
would work together and we would certainly enjoy working with 
the other agencies to look at where do you draw that perimeter 
and what risks do you look at, and what would their impact and 
effect be. I think that is how this agency could work with 
homeland defense and with the other agencies in order to make 
provisions that work for industry and also to protect the 
country and the residents in the nearby areas from such 
releases as a result of terrorists.
    Senator Jeffords. Under the Clean Air Act, the Chemical 
Safety Board is required to collect information on accidents 
and releases. Do you know how complete that information is now?
    Ms. Merritt. No, I do not, but I would be happy to get back 
with you on it.
    Senator Jeffords. OK, fine.
    For both of you, what rule can safer design play in 
addressing potential accidents and terrorism? And what is the 
role of the Board in making such recommendations?
    Ms. Merritt?
    Ms. Merritt. OK. Well, I think that is one of the things 
that the Board does, is, one, to investigate incidents. It also 
have provisions in its mandate to proactively do investigations 
and to make recommendations. I think in working with industry, 
associations and with regulated agencies, as well as FBI or 
others, finding what the vulnerabilities might be and then 
making recommendations that others may act on I think is the 
role that the Board would play. And then also working possibly 
with industry to help to advocate for those changes is another 
way that the Board might serve homeland defense.
    Senator Jeffords. Any comment, Mr. Bresland?
    Mr. Bresland. I think there are probably two aspects to 
this. One is safer design for new facilities. I think as the 
chemical industry, the oil refining industry is building new 
facilities, I would hope that they are putting in the safest 
design, using the least toxic chemicals to build those 
facilities, and also siting them in a way that if there was an 
incident, the offsite impact of that incident would be 
minimized.
    It is a little more complex for existing facilities because 
an existing facility may have been in operation for 30 years. 
It may have been built, in the case of the plant that I worked 
in in Philadelphia, it may have been built in Philadelphia 100 
years ago when nobody lived around it. Today, it is surrounded 
by people, so it is difficult to just pick a plant up and go 
somewhere else. It is very expensive also.
    So I think the issue of inherently safer design is 
something that the chemical industry is interested in and I 
would certainly encourage it. It should be done for new 
facilities. It should be done to the best extent possible for 
existing facilities in doing things like reducing the amount of 
chemicals that you have onsite.
    If I may give an analogy here that I read a few weeks ago, 
one of the other things I do in New Jersey is I work for an 
ambulance squad. A few weeks ago, we went to a call where a 
woman had fallen down the stairs and it turned out she had 
broken her neck and we had to take her to the hospital. In the 
follow-up to that, not necessarily the follow-up to that, but I 
was reading about the issue of inherent safety. The analogy was 
given to the stairs in your house. If you have a house with 
existing stairs, if you have an existing two-story house, the 
stairs are there and you can't do much about them, but you have 
to build things that would stop you falling down. If you were 
building the safest possible house today, you would built it in 
a one story that did not have stairs in it.
    The same situation applies to the chemical industry to a 
certain extent. It is easier to put in inherently safer design 
for new facilities than it is for older facilities. But I would 
certainly, as a Boardmember, encourage the chemical industry to 
do it for both types of facilities.
    Senator Jeffords. Anything else you would like to add 
before I ask you the obligatory question?
    Ms. Merritt. I would just thank you for the opportunity to 
be able to be here today and to meet with you.
    Senator Jeffords. Thank you.
    I now will ask you the obligatory questions. Are you 
willing at the request of any duly constituted committee of the 
Congress to appear in front of it as a witness?
    Ms. Merritt. I do.
    Mr. Bresland. Yes.
    Senator Jeffords. No. 2, do you know of any matters which 
you may or may not have thus far disclosed which might place 
you in any conflict of interest if you are confirmed in this 
position?
    Mr. Bresland?
    Mr. Bresland. No, I do not.
    Senator Jeffords. Ms. Merritt?
    Ms. Merritt. No, I do not.
    Senator Jeffords. Well, now we have the rule that says that 
members have the right to, even though they did not come here 
today, to submit questions to you. So I warn you, but I would 
not stand by the mailbox either, so----
    [Laughter.]
    Senator Jeffords [continuing]. That is something that may 
occur.
    I just want to thank you for very excellent statements and 
I look forward to working with you and we will have to have a 
meeting of the full committee in order to endorse your presence 
on this committee.
    So thank you, and best of luck to you.
    Ms. Merritt. Thank you.
    Mr. Bresland. Thank you very much, Mr. Chairman.
    [Whereupon, at 10:27 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]

 Prepared Statement of Hon. Bob Smith, U.S. Senator from the State of 
                             New Hampshire

    Mr. Chairman, I am pleased that we have been given this 
opportunity to hear testimony from both of these nominees. John 
Bresland and Carolyn Merritt have been nominated by the 
President to serve on a Board that has in the past and will 
continue to play a great role in the protection of our nation 
from major chemical accidents at fixed facilities.
    The Chemical Safety and Chemical Hazard Investigation Board 
(CSB) was formed under provisions of the Clean Air Act and 
serves to investigate and determine ways to prevent accidents 
involving hazardous chemicals. Since January of 2000, this 
Board has existed without a Chairman and CEO--that is not an 
acceptable manner in which to run a Board that has such a 
weighty responsibility.
    Why is it important for this particular Board to be fully 
staffed? As early as 1993 the EPA reported the existence of 
more than 278,000 chemical facilities that generate, transport, 
treat, store and/or dispose of hazardous waste. In the same 
year it was determined that nearly four billion tons of 
hazardous waste are shipped each year. That was in 1993--it is 
staggering to think about what those numbers are now. The CSB 
has the responsibility of determining the consequences of 
accidents involving hazardous chemicals at fixed facilities and 
are, in conjunction with the NTSB, involved in investigating 
accidents involving hazardous chemicals in transit. While the 
CSB does not have enforcement or regulatory powers, they are 
responsible for helping those who are in a position to make 
decisions understand why accidents happened and what can be 
done to prevent them in the future.
    In order to be effective, the CSB must be composed of 
individuals who have an intimate understanding of a number of 
technical areas including, but not limited to, toxicology, 
accident reconstruction, general chemical safety issues and 
pollution regulations. Perhaps most important, they must 
understand the human factors and human consequences of 
hazardous chemical accidents. People die, are seriously injured 
and lose jobs when these accidents occur and I believe that it 
is our duty to make certain that we do everything in our power 
to help prevent these accidents. With a qualified and committed 
Board the CSB has the potential to do exactly that.
    John Bresland has an extensive background in a variety of 
chemical safety and conditional fields. He has studied both in 
the United States and abroad and has shown a consistent desire 
to remain up to date on all aspects of his field. During his 
career with Honeywell International he has gained valuable 
experience in environmental compliance, engineering, 
manufacturing and safety compliance. Most recently he has 
served as President of a consulting firm that specializes in 
chemical facility safety and environmental performance 
improvement. I believe that he has the kind of background and 
education that will make him an outstanding and highly valuable 
member of the CSB.
    Carolyn Merritt is a skilled manager and brings with her a 
25-year background with strong ties to chemical safety. In both 
technical and managerial positions, she has worked in a wide 
variety of positions aimed at creating safe, environmentally 
responsible and involved facilities. Most recently, Carolyn 
Merritt has served as Senior Vice President for Environment, 
Health and Safety for IMC Global, Inc. She has been responsible 
for establishing plans that reduce risk and ensure that there 
is the highest level of accountability. Her management 
experience will be an invaluable asset as Chairman and CEO of 
the CSB.
    I am certain that both John Bresland and Carolyn Merritt 
will carry out the duties presented to them when confirmed to 
the best of their abilities--they are very well qualified to 
serve on the CSB and I am pleased to have the opportunity to 
have them here before the committee today.
                              ----------                              


  Statement of John S. Bresland, Nominated by President Bush to be a 
Board Member of the U.S. Chemical Safety and Hazard Investigation Board

    Thank you, Mr. Chairman and distinguished members of the 
committee.
    My name is John Bresland. I am honored to appear before you 
to tell you about my background and what I would hope to 
accomplish if confirmed as a member of the Chemical Safety and 
Hazard Investigation Board.
    But first, if I may, I would like to introduce my wife, 
Beth. She is an Oncology Social Worker at Morristown Memorial 
Hospital in Morristown, New Jersey. We have two married 
daughters and four grandchildren.
    Let me also say that I am very grateful for the support of 
Senator Jon Corzine and Representative Rodney Frelinghuysen 
from my home State of New Jersey.
    My reasons for being honored by this nomination are both 
personal and professional. I was born in Londonderry, Northern 
Ireland. My education in chemistry took place in Northern 
Ireland and in England. I came to the United States 36 years 
ago. I have spent all of those years working in the chemical 
industry. I became a United States citizen in a ceremony at 
Independence Hall in Philadelphia in 1983. Both the United 
States and the chemical industry have been good to me and they 
have allowed me to live in freedom and comfort.
    After many years of experience in business, I have the 
desire to get involved in public service and return some of the 
benefits that I have received over the years. I am fully 
committed to the public-service mission of the Chemical Safety 
Board: to prevent accidents, save lives, and protect the 
environment by conducting investigations and advocating safety 
recommendations.
    In 1966 I joined the Allied Chemical Company (now Honeywell 
International) in West Virginia. I continued to work for 
Honeywell until 2000. During that time I worked in chemical 
plants in West Virginia; Philadelphia, Pennsylvania; and 
Hopewell, Virginia. My last 5 years with Honeywell were spent 
at their corporate headquarters in Morristown, New Jersey.
    My experience in the chemical industry has been, I believe, 
broad-based.
    <bullet>  It includes chemicals manufacturing--I have been 
an operations manager and plant manager in complex facilities.
    <bullet>  It includes management--I was responsible for the 
operation of a facility with 300 employees, both union and non-
union.
    <bullet>  I'm experienced in health, safety and 
environmental compliance. I have been responsible for chemical 
plants' compliance with Federal, State and local laws and 
regulations.
    <bullet>  I have extensive experience in community 
outreach. I've run community advisory panels for Honeywell, 
made a point of personally visiting plant neighbors and 
listening to their concerns, and I was Chairman of the American 
Chemistry Council's national plant manager and community leader 
training program.
    <bullet>  And finally, with regard to chemical process 
safety: When I retired from Honeywell I formed my own 
consulting company, specializing in the areas of compliance 
with the OSHA Process Safety Management Program and the EPA 
Risk Management Program. I also work as a Staff Consultant with 
the Center for Chemical Process Safety of the American 
Institute of Chemical Engineers. Currently I am helping to 
develop chemical process safety books, including one on 
reactive chemicals management which, as you may know, is the 
subject of a major ongoing investigation at the CSB.
    Mr. Chairman, I believe that my experience would blend with 
the solid professional experience and dedication of the current 
Board members and that of the nominee for Chair, Carolyn 
Merritt.
    I would hope to contribute toward consensus on the agency's 
mission and activities. In my view, the priorities of the Board 
over the next 5 years should be as follows:
    1. First and foremost, increase the numbers of accident 
investigations.
    2. Next, step up the work the Board is already doing to be 
an advocate for the implementation of CSB safety 
recommendations by industry and government. This means 
continuing to work in a cost effective manner with the Board's 
stakeholders including people who live around chemical 
facilities, the chemical process industry and its trade 
organizations, labor unions, Members of Congress and 
congressional staffs, and last but not least EPA and OSHA.
    3. I believe that Board members and the Chief Operating 
Officer must manage the agency in a sound and prudent manner. 
If confirmed, I would be committed to developing a close and 
effective working relationship with the new Chair, other board 
members and staff.
    4. Mr. Chairman, in today's world of concern about 
terrorism, I would hope that the agency could explore, with 
your committee, ways to use the expertise of the Chemical 
Safety Board to improve homeland security with regard to 
chemical facilities.
    The goal of these priority actions, of course, will be an 
improvement in chemical plant process safety saving lives and 
protecting the environment. If, at the end of my 5-year term, I 
could point to success in those areas, I believe that my time 
in Washington will have been well spent.
    I am looking forward to the challenges that face me with 
humility and enthusiasm. If you honor me with confirmation, I 
look forward to working with you and your staffs.
    Thank you again for the opportunity to appear before you. I 
would be pleased to answer any questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


  Statement of Carolyn W. Merritt, Nominated by President Bush to be 
 Chairman and CEO of the U.S. Chemical Safety and Hazard Investigation 
                                 Board

    Mr. Chairman and members of the committee, thank you for 
the opportunity to appear before you.
    My name is Carolyn Merritt. I am honored and humbled by 
this nomination from the President to the position of Chairman 
and CEO of the U. S. Chemical Safety and Hazard Investigation 
Board. In a career that has spanned 30 years, I have had the 
satisfaction of working as a high school teacher, as a general 
foreman, environmental manager and corporate officer. I have 
been proud of my accomplishments. I believe, however, that it 
would be my utmost privilege to work in government service.
    I am excited by the opportunity to contribute my experience 
and knowledge to the U.S. Chemical Safety and Hazard 
Investigation Board. I believe this agency can effectively 
fulfill its mandate to determine root causes of chemical 
accidents and to recommend and advocate safety improvements in 
industry. Chemical accidents cost human lives, contaminate the 
environment, and destroy production facilities and jobs. The 
Chemical Safety Board can, and does, help prevent these losses.
    In every position I have held, I have worked to be an 
effective leader, communicator and problem solver. My 
professional experience has included work in facilities that 
manufactured chemicals, fertilizers, pharmaceuticals, 
munitions, minerals, and pulp and paper. I have worked in 
research, quality control, process engineering, plant 
operations, wastewater treatment, environmental compliance, 
worker safety and executive management. From 1994 to 2001, I 
served as Senior Vice President for Environment, Health, and 
Safety for IMC Global, a billion dollar agricultural chemicals 
company with as many as 12,000 employees. From the early 1980's 
to 1994, I held environmental and safety management positions 
with Champion International Corporation and the Tennessee 
Chemical Company.
    My most rewarding experiences have been working with 
communities, industrial managers and workers to reduce the risk 
that a facility will suffer a disastrous chemical incident and 
prepare for emergency response in the event such an event were 
to occur. Continuing this work as part of the Chemical Safety 
Board has the potential to further improve the safety and 
security of people, property and vital productivity.
    OSHA's 1993 Process Safety Management standard was an 
important milestone in improving plant safety and protecting 
workers, residents, and the environment. I have worked in two 
different industries guiding management and operating staff as 
they implemented these rules. I believe these regulations have 
saved lives and prevented substantial environmental damage.
    The chemical industry, in which I have spent most of my 
career, is an important contributor to our economy and quality 
of life. At the same time, I have seen that government has a 
significant role to play in verifying the safety and compliance 
of chemical manufacturing facilities and facilities that use 
hazardous chemicals in their processes. The Chemical Safety 
Board should work in partnership with enforcement agencies, the 
regulated community and Congress to determine how best to use 
lessons learned from incident investigations to prevent their 
recurrence. Prevention has to be the ultimate reason for 
regulation. The CSB can be an important vehicle to achieve 
effective prevention.
    The Board has gone for more than 2 years without a Chair, a 
full-time Chief Operating Officer, or a full complement of 
Board Members. If Mr. John Bresland, President Bush's nominee 
for the other open Board position, and I are fortunate enough 
to be confirmed, the Board will, for the first time, have all 
five seats filled. The combination of academic, industrial, and 
agency experience represented on the Board will create a highly 
effective management group. I believe the CSB is poised to 
produce and can achieve the results Congress intended when it 
was created by the 1990 Clean Air Act Amendments.
    I believe my executive and organizational skills can move 
this agency forward; improve morale and effectiveness; and 
achieve the support and respect of this committee, sister 
government agencies, and industry. I hope you will grant me the 
opportunity to lead this organization to a more effective 
future.
    Thank you for the opportunity to present this testimony. I 
would welcome questions from the committee.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       U.S. Chemical Safety and Hazard Investigation Board,
                               2175 K Street, NW Suite 400,
                         Washington, DC. 20037-1809, March 8, 2002.

Clifford N. Melby,
Assistant Inspector General for Inspections,
U.S. Chemical Safety and Hazard Investigation Board,
Office of Inspector General,
Washington, DC 20472.

Dear Mr. Melby: Thank you for reviewing the U.S. Chemical Safety and 
Hazard Investigation Board's (CSB) operations and making 
recommendations to improve the efficiency and effectiveness with which 
we carry out our important mission.
    As you reported, the CSB experienced significant management 
problems during its first 2 years and has been operating for the past 2 
years without a Chairperson or a permanent Chief Operating Officer 
(COO). You also reported that the CSB needs to address management 
control and Board member accountability issues, and to work on clearly 
defining the direction of the agency and focusing resources 
accordingly. We concur with all of your recommendations for improvement 
and have already initiated corrective actions in many areas.
    We acknowledge that we have had problems, but we have been taking 
steps to address and resolve these problems. We are pleased to note 
that meetirngs held in the summer of 2001 aimed at addressing the issue 
of Board-Senior staff friction are achieving results. In November 2001, 
as you were completing this review, we held and continue to hold a 
number of working sessions to resolve many of the issues identified in 
your report. Action plans, agreements, and other documents developed 
during these working sessions are available for your review and show 
our commitment and progress.
    We would also like to point out that your report might not 
adequately allow readers to recognize that in spite of unusual and 
difficult circumstances in the past 2 years the CSB has made progress 
and achieved several important accomplishments. For example, in fiscal 
year (FY) 2001 the CSB was able to launch investigation assessment 
teams to five incidents, three of which resulted in conducting full 
investigations. Further, we met our goal of completing the first of 
these investigations in less 1:han 12 months, and the others are 
nearing completion. In the past year we have also worked on an 
important hazard investigation related to reactive chemicals and 
completed work on all of the backlogged cases that were left over from 
the CSB's former management. In addition to progress on investigation 
work, the CSB has made significant progress in establishing its 
infrastructure, for example our first full financial audit received an 
unqualified opinion. We also received positive reports from the Office 
of Personnel Management regarding our human capital management and from 
the Office of Government Ethics regarding our ethics program.
    The CSB will take positive action to address the concerns raised in 
your report. The following discussion addresses each of your 
recommendations and the actions we have taken and/or plan to take to 
operate in a more effective and efficient manner.
    OIG Recommendation 1. Recommend the Board establish the necessary 
protocol, and then designate, an acting Chairperson or Vice-Chair. In 
the absence of a Chairperson, the Vice-Chair should be the chief 
executive and administrative officer with authority to appoint and 
supervise the staff, distribute business among the agency's personnel 
and administrative units, and control the preparation of the agency's 
budget and expenditure of funds.
    We agree with your recommendation. When the former Chairperson 
resigned in January 2000, the remaining Board members and General 
Counsel explored the possibility of delegating the Chairperson's 
executive and administrative functions to one Board Member until the 
President appointed and the Senate confirmed a new Chairperson. The 
White House Counsel advised against this course of action. After an 
unanticipated 2-year vacancy in the position of Chairperson, the CSB 
will again pursue appointing an acting Chairperson. As a first step, 
the Board will request a binding legal opinion on the legality of the 
appointment of an acting Chairperson from the Office of Legal Counsel 
of the U.S. Department of Justice. This request will be submitted by 
March 31, 2002.

    2OIG Recommendation 2. Recommend the Board delegate to the COO the 
authority to effectively manage the day-to-day operations of the CSB. 
The delegation should be consistent with the duties set forth in the 
COO's position description.
    We agree with the recommendation and will codify our delegation of 
authority to the COO to effectively manage the day-to-day operations of 
the CSB. Consistent with the duties set forth in the COO's position 
description, the delegation will include authority to:

    <bullet>  Oversee and carry out administrative and operational 
functions of the CSB, such as financial management operations, human 
resource management, public/government affairs and outreach, and 
administrative support operations;
    <bullet>  Direct and oversee strategic planning to meet the Board's 
objectives;
    <bullet>  Deploy investigation teams and oversee all substantive 
investigation and safety mission-related programs; and
    <bullet>  Manage policy development and implementation, program 
integration and management, and advisory services in concert with the 
Board's general guidance and direction.

    The delegation will be accomplished by a Board Order, and we plan 
to have a draft available for the OIG to comment on by April 30, 2002.

    OIG Recommendation 3. Recommend the Acting COO develop a written 
strategy for identifying, prioritizing, and improving the agency's 
system of management controls. Particular attention should be paid to 
establishing accountability mechanisms, including separation of duties. 
This may be accomplished through a senior management council below the 
Board level consisting of managers and key staff, who would review 
controls, assess and report on deficiencies, and provide input on their 
improvement and priority.
    We agree with the recommendation and the COO will develop a written 
strategy for identifying, prioritizing, and improving the CSB's system 
of management controls. This strategy will include your suggestion of a 
management council below the Board level to oversee and audit 
operations. We plan to have a draft of the strategy available for the 
OIG to comment on by June 1, 2002.

    OIG Recommendation 4. Publish regulations that comply with the 
requirements of the ``Government in the Sunshine Act. `` The regulation 
should: (a) sped what mechanism the CSB will use to protect public 
rights during quorum assemblies, such as having General Counsel 
present, (b) clarify whether any item:, of Board business, such as 
investigative reports, necessitate public discussion and cannot be 
accomplished by notation vote alone, (c) clam whether the CSB will hold 
regular meetings and under what types of exceptions it would cancel or 
schedule additional meetings, such as Boards of Inquiry, (d) require 
the CSB to publish votes and public meeting transcripts on the web, (e) 
establish the public reading room as promised by the CSB 's FOIA 
regulation, and (fl direct the CSB to submit an annual Sunshine report 
to Congress.
    We agree with the recommendation and will publish a regulation that 
complies with the requirements of the ``Government in the Sunshine 
Act'' and otherwise addresses the issues raised by the OIG. We plan to 
have the regulation published by May 1, 2002. In the meantime, we will 
implement an interim Sunshine Act Compliance program by March 31, 2002. 
Also, we held a public meeting on February 27, 2002 to discuss the 
status of the CSB's performance goals 1.1, 1.2, and 1.3 of our 
strategic plan and efforts toward hiring a permanent COO. In addition, 
we will establish a FOIA reading room.

    OIG Recommendation 5. Revise policies and procedures io reduce 
Board member involvement in the soliciting and awarding of contracts. 
Such measures should include vesting administrative aspects of the 
procurement process in the Acting COO and raising the minimum 
procurement amount requiring Board approval.
    We agree with the recommendation and will make appropriate 
revisions to our policies and procedures to reduce Board Member 
involvement in the soliciting and awarding of contracts. Key revisions 
will include vesting administrative aspects of the procurement process 
in the COO and limiting Board Member involvement in the procurement 
process to the final approval of goods or services valued at $50,000 or 
more. We plan to have the revisions completed by May 31, 2002.

    OIG Recommendation 6. Recommend the COO develop and implement a 
system that links strategic planning to resource allocation decisions, 
and measures performance in a way that balances productivity and costs 
with desired outcomes.
    We agree with the recommendation. The COO is developing a system to 
link strategic planning to resource allocation decisions, and measures 
performance to balance productivity and costs with desired outcomes. 
The CSB is now monitoring progress on performance goals using work 
plans. We are also developing a system to track staff hours to 
performance goals. We plan to have this system in place by April 30, 
2002.

    OIG Recommendation 7. Recommend the Board immediately prioritize 
agency resources to ensure successful execution of all action items 
related to its investigative performance goal.
    We agree with the recommendation and have taken a hard look at our 
performance plan for fiscal year 2002. To ensure we prioritize 
resources on oar investigative goal we will rescind the following 
initiatives related to outreach:

    <bullet>  Conducting a workshop with the Safety and Chemical 
Engineering Education Committee;
    <bullet>  Co-sponsoring a conference with the National Institute of 
Environmental Health Sciences; and
    <bullet>  Obtaining membership in the Center for Chemical Process 
Safety.

    Further, we will not undertake new initiatives or hiring for 
outreach or data until we review our strategic plan to ensure the CSB 
is focused on the successful execution of our investigative performance 
goal. We plan to have this review completed by June 30, 2002, and 
proposed revisions will be vetted with our congressional authorizing 
and appropriating committees.

    OIG Recommendation 8. Recommend the Board and COO make the agency's 
fiscal year 2002 hiring plans a top priority and to the extent 
possible, accelerate the hiring process for new investigators.
    We agree with the recommendation and hiring staff within the Office 
of Investigations and Safety Programs is a top priority. To accelerate 
filling these critical positions, the CSB will petition OPM for 
permanent Schedule A hiring authority for investigative positions. 
Under temporary Schedule A hiring authority the CSB had a very 
successful hiring program in FY's 2000 and 2001. We plan to submit a 
request for Schedule A hiring authority to the Of Fice of Personnel 
Management by March 31, 2002. In addition, we ask for your support in 
getting Schedule A hiring authority, which is the key to getting new 
investigators on board as quickly as possible.

    OIG Recommendation 9. Recommend the Board and COO curtail training-
outreach initiatives until (a) the Board develops a Strategic Outreach 
Plan that takes into account the agency's statutory authority 
responsibilities, primary audience, and limited resources; and (b) its 
investigative function is fully operational. The plan should reflect 
the consensus of the Board members, senior management and staff.
    We agree with the recommendation and have curtailed the, training-
outreach initiatives identified under recommendation 7. We are 
developing a strategic outreach plan that we expect to finalize by 
April 30, 2002. As previously stated, we will also review our strategic 
plan to ensure that the CSB is focused on the successful execution of 
our investigative performance goal.

    OIG Recommendation 10. Recommend the Board and COO implement a 
follow-up program for recommendations made in investigative reports, 
including monitoring recommendations, closing recommendations when 
corrective actions are taken, and periodically publishing the status of 
them. In order to better measure the impact of report recommendations, 
the program should be tied to the performance measures identified in 
the agency's performance plan.
    We agree with the recommendation and plan to undertake the 
following:

    <bullet>  Vote to close out 20 of our past recommendations by March 
15, 2002.
    <bullet>  Implement an internal tracking system for recommendations 
status including a data base and electronic file system for 
correspondence and documentation by March 30, 2002.
    <bullet>  Hold a public meeting to formally close a number of other 
recommendations by May 31, 2002.
    <bullet>  Implement a publicly accessible data base on the Work. 
Wide Web for CSB's recommendations status by October 2002.
    <bullet>  Include the percentage of recommendations adopted as a 
significant factor in measuring the effectiveness of CSB's mission 
accomplishment.

    Again, we thank you and your staff for your efforts and 
recommendations to improve the efficiency and effectiveness with which 
we carry out our important mission.
            Sincerely,
                               Gerald V. Poje, Board Member
                            Isadore Rosenthal, Board Member
                           Andrea Kidd Taylor, Board Member


</pre></body></html>
